                        OFFICE OF INSPECTOR GENERAL
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE




                          Incurred-Cost Audit of Grants Awarded to the
                         Wisconsin National and Community Service Board




                                        Audit Report No. 03-04
                                          January 31,2003



                                      Financial Schedules and
                                    Independent Auditors' Report
                                            For the Period
                              September 1, 1997, through March 3 1,2002



                                              Prepared by:


                                     COTTON & COMPANY LLP
                                   333 North Fairfax Street, Suite 401
                                      Alexandria, Virginia 223 14




This report was issued to Corporation management on July 25,2003. Under laws and regulations
governing audit follow-up, the Corporation must make final management decisions on report findings and
recommendations no later than January 25,2004 and complete its corrective actions by July 25,2004.
Consequently, the reported findings do not necessarily represent the final resolution of issues presented.
                                Office of Inspector General                                FOR NATIONAL
                      Corporation for National and Community Service
                                    Audit Report 03-04

                      Incurred-Cost Audit of Grants Awarded to the
                     Wisconsin National and Community Service Board

Introduction

The Corporation for National and Community Service, pursuant to the authority of the National
and Community Service Act, as amended, awards grants and cooperative agreements to State
commissions, nonprofit entities, tribes and territories to assist in the creation of full- and part-
time national and community service programs. Currently, under the Act's requirements, the
Corporation awards approximately three-fourths of its ArneriCorps Staternational funds to State
commissions. The State commissions in turn fund and are responsible for the oversight of
subgrantees who execute the programs. Through these subgrantees, AmeriCorps members
perform service to meet educational, human, environmental, and public safety needs.

The Office of Inspector General (OIG) retained Cotton and Company, LLP to audit Corporation
grants to the Wisconsin National and Community Service Board for AmeriCorps, Learn and
Serve, Program Development and Training, Promise Fellows, Disability, Education, Make a
Difference Day, America Reads and Administrative costs from September 1, 1997, through
March 31, 2002. The audit's objectives were to determine whether: (1) the Board's financial
reports presented fairly the financial results of the awards; (.2) the internal controls adequately
safeguarded Federal funds; (3) the Board and its subgrantees had adequate procedures and
controls to ensure compliance with Federal laws, applicable regulations, and award conditions;
(4) costs were documented and allowable under the awards' terms and conditions; and (5) the
Board had established adequate financial and program( management oversight of its
subrecipients.

The Board had total claimed costs of $7,391,825, of which the auditors questioned $43,008 for
allowability and $565,202 for lack of supporting documentation, the total questioned costs
amount to approximately eight (8) percent of the total claimed costs. Costs questioned for
allowability represent amounts for which documentation shows that recorded costs were
expended in violation of regulations, or specific award ,conditions, or costs that require
interpretation of allowability. Costs questioned for support require additional documentation to
substantiate that the cost was incurred and is allowable. The auditors concluded that the
Schedules of Claimed and Questioned Costs present fairly the costs claimed by the Board, except
for the questioned and unsupported costs identified in th.e report, and the effects of any
adjustments.

At the conclusion of field work the auditors originally identified $207,564 of questioned costs
because of allowability. At the exit conference, which was conducted on May 20, 2003, the
Board provided additional information. This enabled the auditors to reduce the questioned costs
for allowability to $43,008, a reduction of $164,556.


                                                                                       Inspector General
                                                                                       1201 New York Avenue, NW
                                                                                       Washington, DC 20Y25
The Office of Inspector General has reviewed the report and the work papers supporting the
auditors' conclusions.

Our office also provided the Board and the Corporation with a draft of this report for their review
and comment. Their responses are included in their entirety as Appendices A and B,
respectively. The response provided by the Corporation reaffirmed its decision to review
additional documentation provided by the Board related to the unsupported match on the
Administrative grant during the audit resolution process. Contingent on results of this review,
some of the questioned costs may be allowed.
                             OFFICE OF INSPECTOR GENERAL
                   CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                    INCURRED-COST AUDIT OF GRANTS AWARDED TO THE
                   WISCONSIN NATIONAL AND COMMUNITY SERVICE BOARD

                                                         Contents

Section                                                                                                                 Page

Audit Scope .........................................................................................................

Summary of Results ...............................................................................................

Independent Auditors7Report ....................................................................................

Consolidated Schedule of Claimed and Questioned Costs ...................................................

Schedule A: Schedule of Claimed and Questioned Costs for Award No . 94SCSWI048 ................

Schedule B: Schedule of Claimed and Questioned Costs for Award No . 01SCSWI048 ................

Schedule C: Schedule of Claimed and Questioned Costs for Award No . 99ARCWI05 1 ...............

Schedule D: Schedule of Claimed and Questioned Costs for Award No . 00ASCWI05 1 ...............

Schedule E: Schedule of Claimed and Questioned Costs for Award No . 99EDSWI05 1 ...............

Schedule F: Schedule of Claimed and Questioned Costs for Award No . 94ASCWI051 ...............
   Schedule F-1: Schedule of Claimed and Questioned Costs. Milwaukee Community Service
       Corps. Inc .................................................................................................
   Schedule F-2: Schedule of Claimed and Questioned Costs. Housing Authority of the City of
       Milwaukee ................................................................................................
   Schedule F-3: Schedule of Claimed and Questioned Costs. Workforce Connections ..............

Schedule G: Schedule of Claimed and Questioned Costs for Award No . 99ASHWI05 1 ...............
   Schedule G-1: Schedule of Claimed and Questioned Costs. Ashland County Housing
       Authority ..................................................................................................
   Schedule G-2: Schedule of Claimed and Questioned Costs. Harambee Ombudsman Project.
       Inc ..........................................................................................................
   Schedule G-3: Schedule of Claimed and Questioned Costs. Indianhead Community Action
       Agency. Inc...............................................................................................
   Schedule G-4: Schedule of Claimed and Questioned Costs. Renewal Unlimited. Inc .............

Schedule H: Schedule of Claimed and Questioned Costs for Award No . 97LCSWIO17 ...........

Summary of Significant Accounting Policies ..................................................................

Independent Auditors' Report on Compliance and Internal Control .......................................                  29
Section                                                                                                                         Page

Attachment

A: Status of Findings from the Pre-audit Survey ... ... ... ... ... ... ... ... ...... ... ... ...... ...... ... ... ... ....    41


Appendixes

A: Board's Response to Draft Audit Report
B: Corporation's Response to Draft Audit Report
                                            AUDIT SCOPE


        At your request, Cotton & Company, LLP performed an incurred-cost audit of costs claimed by
the Wisconsin National and Community Service Board (the Board) and its subrecipients (listed on the
following page) for Program Years 1998-1999, 1999-2000, and 2000-2001. Costs were incurred for these
program years from January 1, 1998, through March 3 1,2002. Our audit covered financial transactions,
compliance, and internal control testing of the following program awards funded by the Corporation for
National and Community Service (the Corporation):

Program                                   Award No.             Award Period               Audit Period
Administrative                           94SCSWIO48            02/01/94-1213 1/00         0110 1199-03131/01
Administrative                           01SCSWIO48            01/01/01-12/31/03          01/01/01-03/31/02
Program Development Assistance           95PDSWI048            01/01/95-12/31/01          01/01/99-0313 1/02
  and Training (PDAT)
Make a Difference Day                   99MDDWI028             01/01/99-12/31/99          01/01/99-03/31/00
AmeriCorps AmericaReads                  99ARCWIO51            0810 1/99-07131/02         0810 1/99-12131/01
AmeriCorps Competitive                   00ASCWI05 1           08/01/00-0713 1/01         0810 1100-03131/02
AmeriCorps Education Award               99EDSWI05 1           04/01/99-0713 1/02         04/01/99-0313 1/02
AmeriCorps Formula                       94ASCWI05 1           08/01/94-1213 1/00         09/01/98-0313 1/01
AmeriCorps Formula                       00ASFWI05 1           0910 1100-08131/01         0910 1100-03131/02
AmeriCorps Governor's Initiative         99ASHWI05 1           01/01/00-12/31/02          01/01/00-01/31/02
AmeriCorps Promise Fellows                98APSWIO51           01/01/99-12/31/99          01/01/99-12/31/00
AmeriCorps Promise Fellows                99APSWIO51           0910 1199-1211310 1        0110 1100-03131/02
Disability                               97DSCWI048            01/01/00-12/31/00          01/01/00-12/31/00
Learn and Serve                           97LCSWIO17           09/01/97-0313 1/02         01/01/98-0313 1/02


        Audit objectives were to determine if:

                The Board's financial reports presented financial award results fairly.

                Internal controls were adequate to safeguard Federal funds.

                The Board and its subrecipients had adequate procedures and controls to ensure
                compliance with Federal laws, applicable regulations, and award conditions.

                The Board documented award costs reported to the Corporation and these costs were
                allowable in accordance with award terms and conditions.

                The Board had established adequate financial and program management oversight of its
                subrecipients.
We used the following subrecipient abbreviations in this report:

  Full Name                                                        Abbreviated Name
  Advocacy Community Action Program, Inc.                          ADVOCAP
  Ashland County Housing Authority                                 Ashland
  Cooperative Educational Service Agency                           CESA
  Harambee Ombudsman Project, Inc.                                 Harambee
  Housing Authority of the City of Milwaukee                       HACM
  Indianhead Community Action Agency, Inc.                         Indianhead
  Milwaukee Community Service Corps, Inc.                          MCSC
  Milwaukee Teacher Education Center                               MTEC
  North Central Community Action Program, Inc.                     North Central CAP
  Operation Fresh Start, Inc.                                      Operation Fresh Start
  Public Allies, Inc.                                              Public Allies
  Renewal Unlimited, Inc.                                          Renewal Unlimited
  Volunteer Center of Brown County                                 VCBC
  Wausau Hmong Mutual Association                                  Wausau
  Western Dairyland Economic Opportunity Council, Inc.             Dairyland
  Workforce Connections (formerly Western Wisconsin Private
  Industry Council, Inc.)                                          Workforce
  Wisconsin Association for Runaway Services                       WARS
  Wisconsin Department of Administration                           DOA
  Wisconsin Department of Public Instruction                       DPI
  Wisconsin Positive Youth Initiative                              WPYI
  YMCA of the Fox Cities (formerly Appleton Family YMCA)           Fox Cities
                                      SUMMARY OF RESULTS


         Our audit report expresses a qualified opinion on the Consolidated Schedule of Claimed and
Questioned Costs based upon questioned costs detailed below and the following audit-scope limitations.
At the request of the Office of Inspector General, we did not expand the audit scope as a result of audit
findings, as required in accordance with auditing standards generally accepted in the United States of
America. Compliance and internal control and cost findings are summarized below.

COMPLIANCE AND INTERNAL CONTROL FINDINGS

        Our report on compliance with and internal controls over laws, regulations, contracts, and grants
applicable to the audit of the Consolidated Schedule of Claimed and Questioned Costs disclosed findings
required to be reported under Government Auditing Standards. These findings are as follows:

        The Board claimed unallowable costs and costs for which no documentation was provided to
        support allowability.

        Certain subrecipients did not submit Financial Status Reports, progress reports, and member
        enrollment and exit forms in a timely manner.

        Certain subrecipients did not comply with program requirements.

        The Board and its subrecipients did not meet matching requirements.

        Certain subrecipients did not ensure that member eligibility requirements were met.

        The Board should improve financial monitoring of subrecipients.

        The Board staff did not include sufficient financial information on some subrecipients for the
        Board members during the subgrant award process.

        Certain subrecipients did not comply with record-retention policies.

        The Board should improve internal controls over those requirements passed on to other State
        agencies.
COST FINDINGS


         The Board claimed $7,39 1,825 for its Corporation grants for Program Years 1998-1999, 1999-
2000, and 2000-2001. Of this amount, we questioned claimed costs of $43,008 for allowability and
$565,202 for lack of support. Costs questioned for allowability are costs for which documentation shows
that recorded costs were expended in violation of laws, regulations, or specific award conditions or costs
that require interpretation of allowability by the Corporation. Costs questioned for lack of support,
require additional documentation to substantiate that the cost was incurred and is allowable.

         Grant participants who successfully complete terms of service under the AmeriCorps and Learn
and Serve awards are eligible for education awards from the National Service Trust. These award
amounts are not funded by Corporation grants and thus are not included in claimed costs. As part of our
audit, however, we determined the effect of the audit on the eligibility of these awards. Using the same
criteria described above, we questioned education awards of $6,293 for allowability and $109,213 for
lack of support.

        Questioned costs and education awards are summarized below


                                                                                         Education
    Questioned for Allowability                                          Costs            Awards
    Consulting Fees Exceeding the Daily Maximum                          $      286
    Stipend Payments Exceeding the Maximum                                   33,708
    Unnecessary Costs                                                         7,241
    Members Awarded Excess Education Awards                                                 $6,293
    Recalculated Administrative Costs                                         1,773
    Total                                                                $43.008            $6.293




                                                                                         Education
    Questioned for Support                                               Costs            Awards
    Unmet Matching Costs*                                              $305,157
    Missing Member Eligibility Documentation                             15,134           $ 67,262
    Missing Cost Documentation                                            6,000
    Unreconciled Differences                                                500
    Improper Timesheets                                                 142,693             41,95 1
    Unacceptable Cost Allocation Method                                  93,596
    Recalculated Administrative Costs                                     2.122
    Total                                                              $565.202           $109.213
        * Pending a review of activity eligibility by the Corporation, see Schedules A and B
       Details of questioned costs and questioned education awards appear in the Independent Auditors'
Report. Schedules A through H detail cost and education exceptions by award, and are summarized
below:


                                                             Education Awards
                               Costs Questioned                 Questioned
  -Grant No.              Allowability      Support      Allowability   Support          Schedule




   Total                     $43.008        $565.202        $6.293        $109.213



Exit Conference

        We held an exit conference with Board and Corporation representatives on May 20,2003.

Follow-up on Prior Audit Findings

         The Corporation's Office of Inspector General performed a Pre-Audit Survey of the Board in
Fiscal Year 2000 and issued Office of Inspector General Report No. 00-29, dated December 8, 1999. Our
audit followed up on the status of findings and recommendations from that report (see Attachment A).
                                            January 3 1,2003


Inspector General
Corporation for National and Community Service


                               INDEPENDENT AUDITORS' REPORT


        We have audited costs claimed by the Wisconsin National and Community Service Board for
Program Years 1998-1999, 1999-2000, and 2000-2001 for the awards listed below. These costs, as
presented in the Consolidated Schedule of Claimed and Questioned Costs and grant-specific Schedules of
Claimed and Questioned Costs (Schedules A through H), are the responsibility of Board management.
Our responsibility is to express an opinion on the consolidated and grant-specific schedules based on our
audit.

Program                                  Award No.             Award Period             Audit Period
Administrative
Administrative
PDAT
Make a Difference Day
AmeriCorps AmericaReads
AmeriCorps Competitive
AmeriCorps Education Award
AmeriCorps Formula
AmeriCorps Formula
AmeriCorps Governor's Initiative
AmeriCorps Promise Fellows
AmeriCorps Promise Fellows
Disability
Learn and Serve
        Except as described below, we conducted our audit in accordance with audit standards generally
accepted in the United States of America and Government Auditing Standards issued by the Comptroller
General of the United States. These standards require that we plan and perform the audit to obtain
reasonable assurance about whether the financial schedules are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting amounts and disclosures in the financial
schedules. An audit also includes assessing accounting principles used, and significant estimates made by
management, as well as evaluating overall financial schedule presentation. We believe that our audit
provides a reasonable basis for our opinion on costs claimed.

        We based the scope of our audit procedures on the audit-planning memorandum submitted to and
approved by the Office of Inspector General. At the request of the Office of Inspector General, we have
not projected questioned costs to the remainder of the population beyond the samples selected, and we
have not expanded items tested based upon results of our procedures, as required by auditing standards
generally accepted in the United States of America. Accordingly, we are not able to determine the effect
on the Consolidated Schedule of Claimed and Questioned Costs, if any, had additional procedures been
performed.

       The Consolidated Schedule of Claimed and Questioned Costs and grant-specific Schedules of
Claimed and Questioned Costs are intended to present allowable costs incurred under the awards in
accordance with Office of Management and Budget (OMB) Circular A-87, Cost Principlesfor State,
Local and Indian Tribal Governments, other applicable OMB circulars, and award terms and conditions.
Therefore, these are not intended to be complete presentations of the Board's revenues and expenses.
These schedules also identify certain questioned education awards. These awards are not funded by
Corporation grants and thus are not included in claimed costs. As part of our audit, however, we
determined the effect of all member eligibility issues on these awards.

        In our opinion, except for questioned costs in the Consolidated Schedule of Claimed and
Questioned Costs, and except for the effects of such adjustments, if any, that might have been determined
to be necessary had we been able to expand our testing related to the audit-scope limitation discussed
above, the financial schedules referred to above present fairly, in all material respects, costs claimed by
the Board for the period September I, 1997, through March 3 1,2002, in conformity with OMB Circular
A-87, other applicable OMB circulars, and award terms and conditions.

        In accordance with Government Auditing Standards, we have also issued a report, dated January
3 1, 2003, on our consideration of the Board's internal control and compliance with laws and regulations.
This report is an integral part of an audit performed in accordance with Government Auditing Standards
and should be read in conjunction with this report in considering audit results.

        This report is intended solely for the information and use of the Office of Inspector General,
Corporation Management, the Board, and the U.S. Congress and is not intended to be and should not be
used by anyone other than these specified parties.


                                                 COTTON & COMPANY LLP


                                              By:
                                                 Sam A. Hadley, C ~ ACGFM
                                                                      ,
                                                 Partner
                           WISCONSIN NATIONAL AND COMMUNITY SERVICE BOARD
                        CONSOLIDATED SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS


                                                                                          Education Awards
                                                              Costs Questioned               Questioned
                                 Approved      Claimed
 Award No.        Program         Budget        Costs      Allowability   Support      Allowability   Support    Schedule
 94SCSWI048    Administrative    $ 485,109    $ 359,319                   $179,659                                  A
 0 1SCSWI048   Administrative      268,643      250,997                    125,498                                  B
95PDSWI048     PDAT                315,925      295,715
99MDDWI028     Make a
               Difference Day        2,000        1,995
99ARCUr1051    AmericaReads        457,412      338,500      $ 4,973                                  $ 30,714      C
00ASCWI05 1    AmeriCorps,
               Competitive        1,229,106     951,857          286        32,459                                  D
99EDSWI05 1    AmeriCorps, Ed
               Award                72,000       66,000                          500                     4,725      E
94ASCW-I051    AmeriCorps
               Formula            3,559,369    2,949,773       35,481      186,721         $6,293       64,438      F
00ASFWI05 1    AmeriCorps
               Formula             820,525      745,650
99ASHWI05 1    AmeriCorps
               Governor's
               Initiative         1,000,000     900,084         2,268       34,365                       9,336      G
98APSWI05 1    AmeriCorps
               Promise Fellows      39,000       36,682
99APSW I05 1   AmeriCorps
               Promise Fellows      66,500       66,500
97DSCW I049    Disability           87,245       60,259
97LCSWI0 17    Learn and Serve     481,500      368,494                      6.000                                  H
               Total             $8.884.334   $7.391.825      $43.008     $565?202         $6.293     $109.213
                                                                                        SCHEDULE A


               WISCONSIN NATIONAL AND COMMUNITY SERVICE BOARD
                SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              AWARD NO. 94SCSWI048
                             ADNIINISTRATIVE GRANT
                        JANUARY 1,1999, TO MARCH 31,2001


                                          Approved          Claimed       Questioned
                                           Budget            Costs          Costs
                 Administrative Grant       $458.109        $359.319       $179.659



Questioned costs represent unmet matching requirements. The Board was required to match 50 percent of
all eligible grant costs in accordance with Title 45 of the Code of Federal Regulations (CFR), Subpart
2550.1 10 (b). As discussed in the Independent Auditors' Report on Compliance and Internal Control, the
Board did not accumulate or identify matching costs in one account, did not identify federal matching
costs separately in its accounting system, claimed unallowable matching costs, and included mathematical
errors in its claim. During our review, additional matching costs were identified, however we could not
determine if claimed costs were part of the original budget approved by the Corporation. We will classify
claimed match costs as unsupported until the Corporation reviews the type of costs claimed and
determines the eligibility of each claimed activity. As a result, we classified $179,659 of claimed
administrative costs as unsupported, pending that review. We calculated questioned claimed costs as
follows:


         Claimed Costs
         Federal Costs
         Less Questioned Claimed Costs
         Total Federal Costs per Audit

         Claimed Matching Costs
         Less Questioned Matching Costs
         Total Matching Costs per Audit
         Total Grant Costs per Audit

         Overclaimed Federal Share
         Federal Costs per Audit
         Less Maximum Corporation Share (50% of $359,319)
         Overclaimed Federal Share
                                                                                         SCHEDULE B


                WISCONSIN NATIONAL AND COMMUNITY SERVICE BOARD
                SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
                CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              AWARD NO. 01SCSWI048
                             ADMINISTRATIVE GRANT
                         JANUARY 1,2001, TO MARCH 31,2002


                                           Approved         Claimed        Questioned
                                            Budget           Costs           Costs
                 Administrative Grant       $268.643        $250.997       $125.498



Questioned costs represent unmet matching requirements. The Board was required to match 50 percent of
all eligible grant costs in accordance with 45 CFR, Subpart 2550.1 10(b). As discussed in the Independent
Auditors' Report on Compliance and Internal Control, the Board did not accumulate or identify matching
costs in one account, did not identify federal matching costs separately in its accounting system, claimed
unallowable matching costs, and included mathematical errors in its claim. During our review, additional
matching costs were identified, however we could not determine if claimed costs were part of the original
budget approved by the Corporation. We will classify claimed match costs as unsupported until the
Corporation reviews the type of costs claimed and determines the eligibility of each claimed activity. As
a result, we classified $125,498 of claimed administrative costs as unsupported, pending that review. We
calculated questioned claimed costs as follows:


         Claimed Costs
         Federal Costs
         Less Questioned Claimed Costs
         Total Federal Costs per Audit

         Claimed Matching Costs
         Less Questioned Matching Costs
         Total Matching Costs per Audit
         Total Grant Costs per Audit

         Overclaimed Federal Share
         Federal Costs per Audit
         Less Maximum Corporation Share (50% of $250,997)
         Overclaimed Federal Share
                                                                                 SCHEDULE C


              WISCONSIN NATIONAL AND COMMUNITY SERVICE BOARD
               SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                            AWARD NO. 99ARCWI051
                         AMERICORPS AMERICA READS
                      AUGUST 1,1999, TO DECEMBER 31,2001


                                                                 Questioned
                       Approved        Claimed   Questioned      Education
                        Budget          Costs      Costs          Awards         Reference
   DPI                 $457.412       $338.500     $4.973         $30.714        See Below




DPI
-                                                                                    Notes
Approved Budget (Federal Funds)                                      $457.412

 Claimed Costs                                                       $338.500

 Questioned for Allowability
     Ineligible member health care expenses
     VISTA expenses
     Duplicative costs
 Total Questioned for Allowability

 Education Awards Questioned for Support
   Missing member eligibility documentation
     High school diploma/GED                           $30,714                         4
 Total Questioned for Support                                         $30.7 14
1.   During the Board's review of DPI expenses, the Board noted that DPI erroneously continued to
     pay health insurance costs for members who had exited the program. We questioned excess costs
     of $3,673 in accordance with OMB Circular A-87 guidelines.

2.   DPI incorrectly charged $1,239 to DPI's AmeriCorps program rather than its VISTA program in
     Program Year (PY) 2000-2001. AmeriCorps and VISTA held joint training sessions, but the
     costs were not split between the two programs. A portion of the misallocation was identified and
     corrected in the program year the error occurred. We questioned the remaining $1,005 that was
     not corrected.

3.   During the Board's review of DPI expenses, the Board noted that DPI inadvertently charged an
     unemployment claim to the AmeriCorps grant twice in PY 1999-2000. We questioned the second
     charge of $295.

4.   Ten of eleven member files tested in PYs 1999-2000 and 2000-2001 did not contain high school
     diplomas or GED certificates to verify member eligibility. According to 45 CFR, Subpart
     2522.200(a)(2), AmeriCorps participants must:

             Have a high school diploma or its equivalent; or

             Not have dropped out of elementary or secondary school to enroll as an AmeriCorps
             participant; and

             Agree to obtain a high school diploma or its equivalent before using the education award.

     Without evidence of eligibility, we questioned the related education awards of $30,714.
                                                                                   SCHEDULE D


                WISCONSIN NATIONAL AND COMMUNITY SERVICE BOARD
                SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
                CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              AWARD NO. 00ASCWI051
                            AMERICORP COMPETITIVE
                          AUGUST 1,2000, TO MARCH 31,2002


                                   Approved     Claimed       Questioned
                                    Budget       Costs          Costs          Reference
   MCSC                                         $208,276
   Operation Fresh Start                         3 16,299
   Public Allies                                 203,199          $32,745         See below
   Fox Cities                                    224,083
   Total                           $1.229.106   $951.857          $32.745




Public Allies                                                                          Notes
Approved Budget (Federal Funds)                                        $2 15,625

Claimed Costs

Questioned for Allowability
  Consulting fees exceeding the daily maximum

Questioned for Support
   Unacceptable cost allocation method                 $3 1,959                          2
   Unreconciled differences                                 500                          3
Total Questioned for Support                                            $32.459
1.   Public Allies charged the grant consulting fees that exceeded the allowable daily limit.
     According to AmeriCorps General Provisions, Financial Management Provisions, payments to
     individuals for consulting services under this grant cannot exceed $443 per day. Public Allies'
     employees stated that they were unaware that the grant included consultant cost ceilings. Public
     Allies paid $500 per day for two consultants hired for the mid-year retreat and charged different
     percentages of each consultant fee to the grant. We questioned claimed costs of $286 that
     exceeded the $500 daily ceiling.

2.   Public Allies did not have adequate documentation for its method of allocating costs charged to
     the grant. It allocated labor and other costs to the grant based on its annual AmeriCorps grant
     budget, which identified costs by category and the estimated percentage of that category allocable
     to the different grant programs, such as AmeriCorps, administration, and fundraising.

     According to OMB Circular A-122, Attachment A, Subparagraph A.4, the allocation of charges
     to federal awards must be an after-the-fact determination of benefit received. Also, OMB
     Circular A-122, Attachment B, Subparagraph 7.m(2) requires labor costs to be supported by
     personnel activity reports that:

             Reflect an after-the-fact determination of actual activity of each employee. Budget
             estimates do not qualify as support for charges to awards.

     rn      Account for total activity for which the employee is compensated.

             Are signed by the individual employee or a responsible supervisor

             Are prepared at least monthly and coincide with one or more pay periods.

     The executive director maintains monthly timesheets that record actual effort expended. These
     timesheets are not, however, used to allocate labor costs or verify the reasonableness of
     allocations made. We questioned all claimed labor ($15,000) and fringe costs ($1,500) for the
     executive director and operating costs of $15,459 that were allocated to the grant without an
     adequate allocation method.

3.   Claimed costs could not be reconciled to accounting reports or other schedules. Public Allies did
     not prepare Financial Status Reports (FSR) and Periodic Expense Reports (PER) from its
     accounting system, but rather used ancillary schedules maintained by the executive director that
     were not designed to support historical financial reports. We questioned the $500 difference
     between claimed costs and costs per accounting reports and other schedules.
                                                                                        SCHEDULE E


               WISCONSIN NATIONAL AND COMMUNITY SERVICE BOARD
               SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                             AWARD NO. 99EDSWI051
                               EDUCATION AWARD
                          APRIL 1,1999, TO MARCH 31,2002


                                                                               Questioned
                                Approved        Claimed        Questioned      Education
                                 Budget           Costs          Costs          Awards
           MTEC                  $72.000          $66~000          $IQQ          $4.725



To be eligible for AmeriCorps membership, the member must be a citizen, national, or lawful permanent
resident alien. One of ten member files tested for PY 2000-2001 did not have the documentation required
by 45 CFR, Subpart 2522.200(b)-(c) for proof of U.S. citizenship or lawful permanent resident alien
status. Without this evidence of eligibility, we questioned the program award ($500) and education award
($4,725).
                                                                              SCHEDULE F


                  WISCONSIN NATIONAL AND COMMUNITY SERVICE BOARD
                   SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
                  CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                AWARD NO. 94ASCWI051
                                    AMERICORPS
                          SEPTEMBER 1,1998, TO MARCH 31,2001


                                                                  Questioned
                           Approved     Claimed      Questioned   Education
--                          Budget       Costs         Costs       Awards         Reference
MCSC                                    $ 629,661     $ 35,481     $ 6,293       Schedule F-1
HACM                                      268,742      186,721      49,537       Schedule F-2
North Central CAP                         308,560
Operation Fresh Start                     673,64 1
Workforce                                 412,756                   14,901       Schedule F-3
WARS                                      287,091
Fox Cities                                369,322
'Total                     $3.559.369   $2.949.773    $222,202     $70.73 1
                                                                                        SCHEDULE F-1


                 WISCONSIN NATIONAL AND COMMUNITY SERVICE BOARD
                  SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
                 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                               AWARD NO. 94ASCWI051
                                   AMERICORPS

                                                  -           -          -




MCSC                                                                                        Notes
 Approved Budget (Federal Funds)                                             $706.370

 Claimed Costs                                                               $629.661

 Questioned for Allowability
    Stipend payments exceeding the maximum                   $33,708                          1
   Recalculated Administrative costs                           1,773                          2
 Total Questioned for Allowability                                            $35.481

 Questioned for Allowability, Education Award
   Members awarded excess education awards



1.     An investigation by the Corporation's OIG, the Board, and MCSC determined that members were
       paid $33,708 more than the maximum living allowance limit, and also that members were granted
       education awards of $6,293 in excess of the amount that should have been granted based on hours
       worked. Although those exceptions were identified in a prior review, these costs are still
       included with the Board's claimed grant costs, and must also be questioned in this report.

2.     MCSC exceeded its allowable administrative costs in PYs 1998-1999 and 1999-2000 as the result
       of our questioning claimed costs. AmeriCorps General Provisions, Administrative Costs, states
       that administrative costs cannot exceed 5 percent of total Corporation funds, which also
       represents 5.26 percent of total Corporation funds excluding administrative costs. We questioned
       $1,773 of administrative costs, as follows:

        Recalculated Administrative Costs
        Claimed Costs Excluding Administrative Costs
        Less Questioned Costs from Notes Above
        Direct Costs per Audit
        Administrative Costs Percentage
        Administrative Costs per Audit
        Administrative Costs Claimed
        Questioned Administrative Costs
                                                                                     SCHEDULE F-2


                WISCONSIN NATIONAL AND COMMUNITY SERVICE BOARD
                SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
                CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              AWARD NO. 94ASCWI051
                                  AMERICORPS




HACM                                                                                        Notes
Approved Budget (Federal Funds)                                             $449.999

Claimed Costs                                                               $268.742

 Questioned for Support
   Missing member eligibility documentation
   Background check
    Improper timesheets
    Unacceptable cost allocation method
    Recalculated Administrative costs
 Total Questioned for Support

 Questioned for Support, Education Award
    Missing member eligibility documentation
    Background check                                          $ 7,586                          1
    Improper timesheets                                        41,951                         2
 Total Questioned for Support, Education Award                                $49.537



1.     One of five member files tested for PY 1998-99 and all four files tested for PY 1999-2000 lacked
       evidence of appropriate background checks. AmeriCorps Special Provisions, Member Eligibility,
       Recruitment, and Selection, requires background checks of members or employees with
       substantial direct contact with children or who perform service in the homes of children or
       individuals considered vulnerable. Evidence of background checks must be maintained in
       member files. Without evidence of eligibility, we questioned claimed costs ($14,634) and
       education awards ($7,586).

2.     In PY 1998-99 HACM did not require members to sign their timesheets. AmeriCorps General
       Provisions, Financial Management Provisions, states that the grantee must keep time and
       attendance records signed by members and individuals with oversight to document eligibility for
       in-service and post-service benefits. Without evidence of eligibility, we questioned all claimed
       costs ($15 1,962) and education awards ($46,124). However, living allowances and the education
       award for one member have already been questioned in Note 1 above, resulting in net questioned
       living allowances of $142,693 and education awards of $41,95 1.
3.   HACM did not maintain adequate supporting documentation for employees who charge time to
     more than one cost objective. OMB Circular A-87, Attachment B, Subsection 11.h requires that
     labor costs for employees charging time to more than one final cost objective reflect an after-the-
     fact distribution of actual activity, account for the total activity for which each employee is
     compensated, be prepared at least monthly, coincide with one or more pay periods, and be signed
     by the employee. HACM allocated payroll costs using a percentage estimated by the program
     director. We questioned labor costs of $27,272.

4.   HACM exceeded its allowable administrative costs in PY 1998-1999 as the result of our
     questioning of claimed costs. AmeriCorps General Provisions, Administrative Costs, states that
     administrative costs cannot exceed 5 percent of total Corporation funds, which also represents
     5.26 percent of total Corporation funds excluding administrative costs. We questioned $2,122 as
     follows:

      Recalculated Administrative Costs
      Claimed Costs Excluding Administrative Costs
      Less Questioned Costs from Notes Above
      Direct Costs per Audit
      Administrative Costs Percentage
      Administrative Costs per Audit
      Administrative Costs Claimed
      Questioned Administrative Costs
                                                                                       SCHEDULE F-3


                WISCONSIN NATIONAL AND COMMUNITY SERVICE BOARD
                SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
                CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              AWARD NO. 94ASCWI051
                                  AMERICORPS



Workforce                                                                                     Notes
Approved Budget (Federal Funds)                                               $488.000

Claimed Costs

Questioned for Support, Education Award
  Missing member eligibility documentation




1.    All six member files tested in PY 1998-1999 did not contain high school diplomas or GED
      certificates to verify member eligibility. According to 45 CFR, Subpart 2522.200(a)(2),
      AmeriCorps participants must:

                Have a high school diploma or its equivalent; or

      0         Not have dropped out of elementary or secondary school to enroll as an AmeriCorps
                participant; and

                Agree to obtain a high school diploma or its equivalent before using the education award.

      Without evidence of eligibility, we questioned claimed education awards of $14,901.

      Additionally, one of six member files tested did not have the documentation required by 45 CFR,
      Subpart 2522.200(b)-(c) for proof of U.S. citizenship or lawful permanent resident alien status.
      To be eligible for AmeriCorps membership, the member must be a citizen, national, or lawful
      permanent resident alien, We would have questioned the members living allowance of $3,447 had
      we not already questioned the costs for the member above.
                                                                           SCHEDULE G


                WISCONSIN NATIONAL AND COMMUNITY SERVICE BOARD
                 SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
                CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              AWARD NO. 99ASHWI051
                              GOVERNOR'S INITIATIVE
                        JANUARY 1,2000, TO JANUARY 31,2002


                                                                Questioned
                         Approved     Claimed      Questioned   Education
-                         Budget       Costs         Costs       Awards       Reference
ADVOCAP                                $142,000
Ashland                                  62,050      $   250                  Schedule G-1
North Central CAP                        92,73 1
Harambee                                 75,000      34,365       $4,725      Schedule G-2
Indianhead                               99,521       2,018        2,363      Schedule G-3
MCSC                                     50,000
Renewal Unlimited                        86,115                    2,248      Schedule G-4
Wausau                                  115,635
Dairyland                               177,032
Total                    $1.000.000    $900.084     $36.633       $9.336
                                                                                      SCHEDULE Gl


               WISCONSIN NATIONAL AND COMMUNITY SERVICE BOARD
                SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                             AWARD NO. 99ASHWI051
                             GOVERNOR'S INITIATIVE



                 Ashland
                 Approved Budget (Federal Funds)                              $80.000

                 Claimed Costs                                                $62.050

                 Questioned for Allowability
                    Unnecessary costs



Ashland claimed $250 to remove a tattoo observed on the construction site supervisor. Ashland
considered the tattoo inappropriate and requested that the site supervisor remove it. This cost is not
allowable under the Governor's Initiative grant, in accordance with OMB Circular A-87, Attachment A,
Subsection C.2, because it was unnecessary.
                                                                                 SCHEDULE G-2


       WISCONSIN NATIONAL AND COMMUNITY SERVICE BOARD
        SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                     AWARD NO. 99ASHWI051
                     GOVERNOR'S INITIATIVE



 Harambee                                                                      Notes
 Approved Budget (Federal Funds)                                 $75.000

 Claimed Costs                                                   $75.000

 Questioned for Support
    Unacceptable cost allocation method

 Questioned for Support, Education Award
    Missing membership eligibility documentation                  $4.725          2



Harambee did not have adequate support for claimed labor costs for the executive director and
program director. Harambee allocated direct labor and related costs (health, dental, FICA, and
unemployment insurance) for the executive director and program director based on estimated
percentages used in Harambee's cost allocation plans. According to OMB Circular A-122,
Attachment B, Subparagraph 7.m(2), labor costs must be supported by personnel activity reports
that:

        Reflect an after-the-fact determination of actual activity of each employee. Budget
        estimates do not qualify as support for charges to grants.

        Account for total activity for which the employee is compensated.

        Are signed by the individual employee or a responsible supervisor.

        Are prepared at least monthly and coincide with one or more pay periods.

We questioned claimed labor costs of $34,365, because charges were based on budget estimates.

Additionally, Harambee could not provide time cards and wage rate documentation for four
sampled labor transactions totaling $5,832. These costs relate to labor for the executive director
and program director and are already questioned above.
2.   The one member file tested in PY 1999-2000 and one of the three member files tested in PY
     2000-2001 did not contain high school diplomas or GED certificates to verify member eligibility.
     According to 45 CFR, Subpart 2522.200(a)(2)(i), AmeriCorps participants must:

             Have a high school diploma or its equivalent; or

             Not have dropped out of elementary or secondary school to enroll as an AmeriCorps
             participant; and

             Agree to obtain a high school diploma or its equivalent before using the education award.

     Without evidence of eligibility, we questioned education awards of $4,725.

     Additionally, two of four member files tested did not have the proper documentation required by
     45 CFR, Subpart 2522.200(b)-(c) for proof of U.S. citizenship or lawful permanent resident alien
     status. To be eligible for AmeriCorps membership, the member must be a citizen, national, or
     lawful permanent resident alien. The files contained Immigration and Naturalization Service
     Employment Eligibility Verification, Form 1-9, but these forms were incorrectly completed and
     did not verify citizenship or alien status. We would have questioned the member's education
     award ($4,725), had we not already questioned the costs above.
                                                                                     SCHEDULE G-3


               WISCONSIN NATIONAL AND COMMUNITY SERVICE BOARD
               SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                             AWARD NO. 99ASHWI051
                            GOVERNOR'S INITIATIVE



         Indianhead                                                                  Notes
         Approved Budget (Federal Funds)                             $100,000

         Claimed Costs                                                $99.52 1

         Questioned for Allowability
            Unnecessary costs

         Questioned for Support, Education Award
            Missing member eligibility documentation

1.   Indianhead claimed unallowable costs totaling $2,018 in PY 1999-2000 for two bonus payments.
     In accordance with OMB Circular A-122, Attachment A, Subparagraph A.3, costs must be
     reasonable to be charged to a Federal award. Bonuses for staff members were not included in the
     budget submitted for this award and are therefore unreasonable.

2.   One of three member files tested for PY 2000-2001 did not contain high school diplomas or GED
     certificates to verify member eligibility. According to 45 CFR, Subpart 2522.200(a)(2),
     AmeriCorps participants must:

               Have a high school diploma or its equivalent; or

     0         Not have dropped out of elementary or secondary school to enroll as an AmeriCorps
               participant; and

               Agree to obtain a high school diploma or its equivalent before using the education award.

     Without evidence of eligibility, we questioned the education award of $2,363.
                                                                                  SCHEDULE G 4


            WISCONSIN NATIONAL AND COMMUNITY SERVICE BOARD
            SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
            CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                          AWARD NO. 99ASHWI051
                         GOVERNOR'S INITIATIVE
                    JANUARY 1,2000, TO JANUARY 31,2002




      Claimed Costs                                                $86.115

      Questioned for Support, Education Award
         Missing member eligibility documentation
          Parental consent
          High school diploma/GED
      Total



1.   We tested four member files for PY 2000-2001; two of the four members were under the age of
     18 when they enrolled in the AmeriCorps program, but the files did not contain parental consent
     forms, as required by AmeriCorps Special Provisions, Member Eligibility, Recruitment, and
     Selection. The executive director noted that the program manager in charge of the program at
     that time may not have obtained the consent forms, and no longer works with Renewal Unlimited.
     Without evidence of eligibility, we questioned the Educational Awards of $1,285.

2.   Three of four member files tested for PY 2000-2001 did not contain high school dipIomas or
     GED certificates to verify member eligibility. According to 45 CFR, Subpart 2522.200(a)(2),
     AmeriCorps participants must:

            Have a high school diploma or its equivalent; or

            Not have dropped out of elementary or secondary school to enroll as an AmeriCorps
            participant; and

            Agree to obtain a high school diploma or its equivalent before using the education award.

     Without evidence of eligibility, we questioned education awards of $1,162 for the two members
     who received them; $199 of this amount is related to the same member questioned in Note 1,
     above. Therefore, we questioned net costs of $963.
                                                                                             SCHEDULE H


                      WISCONSIN NATIONAL AND COMMUNITY SERVICE BOARD
                      SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
                      CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                    AWARD NO. 97LCSWI017
                                      LEARN AND SERVE
                               JANUARY 1,1998, TO MARCH 31,2002


                         Approved                          PY 3       Total Claimed Questioned
Subrecipient              Budget        PYs 1 and 2       (Note 1)        Costs       Costs                Note
CESA No. 1                               $ 15,342        $ 8,126        $ 23,468
CESA No. 2                                 58,036          11,125         69,161      $6,000               2
CESA No. 3                                 19,642           8,125         27,767
CESA No. 4                                 19,480          19,408         38,888
CESA No. 5                                 20,644           6,936         27,580
CESA No. 6                                 15,927           4,8 15        20,742
CESA No. 7                                 18,704          13,947         32,65 1
CESA No. 8                                  7,045           7,859         14,904
CESA No. 9                                  6,708          13,391         20,099
CESA No. 10                                 7,874           8,052         15,926
CESA No. 11                                27,285          14,125         41,410
CESA No. 12                                18,604          13,458         32,062
DPI                                                           836             836
WPE'I                                        3,000                          3,000
Total



        1.     In the third program year, the Board entered into a Memorandum of Understanding with DPI.
               DPI was to administer the supervision, monitoring, and payment of subgrant awards. The
               schedule above details amount paid by DPI to the 12 Cooperative Educational Service Agencies
               (CESA), plus an administrative fee retained by DPI. Total payments of $130,203 were reconciled
               to the final Financial Status Report filed by the Board.

        2.     We selected two subrecipients each from CESA No. 2 and CESA No. 4 and requested backup
               documentation to support claimed costs. We received adequate documentation to support three of
               the four sampled subrecipients. One subrecipient, Girl Neighborhood Power, did not respond to
               numerous requests for information. Therefore, we have questioned claimed costs of $6,000 paid
               to that subrecipient.
             WISCONSIN NATIONAL AND COMMUNITY SERVICE BOARD
            NOTES TO SCHEDULES OF CLAIMED AND QUESTIONED COSTS
          CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS


                    SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

Basis of Accounting

         The accompanying schedules have been prepared to comply with provisions of the grant
agreements between the Corporation and the Board. The information presented in the schedules has been
prepared from reports submitted by the Board to the Corporation and accounting records of the Board and
its subrecipients. The basis of accounting used in the preparation of these reports differs from accounting
principles generally accepted in the Unites States of America as discussed below.

Equipment

         Equipment is charged to expense in the period during which it is purchased instead of being
recognized as an asset and depreciated over its useful life. As a result, the expense reflected in the
Schedules of Award Costs includes the cost of equipment purchased during the period rather than a
provision for depreciation. The Board owns equipment acquired while used in the program for which it
was purchased or in other future authorized programs. The Corporation has, however, reversionary
interest in the equipment. Its disposition, as well as ownership of any proceeds, therefore, is subject to
Federal regulations.

Inventory

        Minor materials and supplies are charged to expense during the period of purchase.
                                          January 3 1,2003


Inspector General
Corporation for National and Community Service


                           INDEPENDENT AUDITORS' REPORT ON
                          COMPLIANCE AND INTERNAL CONTROL


        We have audited costs claimed by the Wisconsin National and Community Service Board to the
Corporation for National and Community Service for the following awards and have issued our report
thereon, dated January 3 1,2003, which was qualified for the matters discussed therein.

Program                                Award No.              Award Period           Audit Period
Administrative                        94SCSWIO48             0210 l/94- 1213 1/00   01/01/99-0313 1/01
Administrative                        01SCSWIO48             01/01/01-12/31/03      01/01/01-03/31/02
PDAT                                  95PDSWI048             01/01/95-12/31/01      0 1101/99-03131/02
Make a Difference Day                99MDDWI028              01/01/99-12/31/99      01/01/99-0313 1/00
AnleriCorps ArnericaReads            99ARCWIO51              0810 ll99-O7/3 1/02    08/01/99-12131/01
AmeriCorps Competitive               00ASCWI05 1             0810 1100-07131/01     O8/O 1100-03131/02
AmeriCorps Ed Award                  99EDSWI051              0410 1/99-07131/02     0410 1/99-03131/02
AmeriCorps Formula                   94ASCWI05 1             0810 1194-12131100     09/01/98-0313 1/01
AmeriCorps Formula                   00ASFWI05 1             09/01/00-08131/01      0910 1100-03131/02
AmeriCorps Governor's Initiative     99ASHWI051              0 1101100-1213 1I02    01/01/00-0113 1/02
AmeriCorps Promise Fellows           98APSWI051              01/01/99-12/31/99      01/01/99-12131100
AmeriCorps Promise Fellows           99APSWI051              09/01/99-12/13/01      0 1/01/00-03131/02
Disability                           97DSCWI048              01/01/00-12131/00      01/01/00-12/31/00
Learn and Serve                      97LCSWIO17              0910 1197-03131/02     01/01/98-03131/02
COMPLIANCE

        As part of obtaining reasonable assurance about whether the final schedule is free of material
misstatements, we performed tests of compliance with certain provisions of laws, regulations, and the
grant, noncompliance with which could have a direct and material effect on the determination of financial
schedule amounts. Providing an overall opinion on compliance with these provisions was not an
objective of our audit and, accordingly, we do not express such an opinion. Results of our tests disclosed
instances of noncompliance that are required to be reported under Government Auditing Standards. See
Findings one through five below.

INTERNAL CONTROL OVER FINANCIAL REPORTING

         In planning and performing our audit, we obtained an understanding of the Board's internal
control over financial reporting to determine audit procedures for the purpose of expressing our opinion
on the financial schedule, and not to provide assurance on internal control over financial reporting. We
noted, however, certain matters involving internal control over financial reporting and its operation that
we consider to be reportable conditions. Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of internal control over financial reporting
that, in our judgment, could adversely affect the Board's ability to record, process, summarize, and report
financial data, consistent with assertions of management in the financial schedules. See Findings One,
Two, Four, Six, Seven, Eight, and Nine below.

        A material weakness is a condition in which the design or operation of one or more of the internal
control elements does not reduce to a relatively low level the risk that misstatements in amounts that
would be material in relation to the financial schedules being audited may occur and not be detected
within a timely period by employees in the normal course of performing their assigned functions. Our
consideration of the internal control structure would not necessarily disclose all matters in the internal
control structure that might be reportable conditions and, accordingly, would not necessarily disclose all
reportable conditions that are also considered to be material weaknesses. We consider the reportable
conditions in Findings Four and Nine below to be material weaknesses.

FINDINGS

1.      The Board claimed unallowable costs and costs for which no documentation was provided
        to support allowability.

         The results of our subgrantee visits identified several sites that claimed unallowable costs, or
costs for which there was no supporting documentation. In some cases the subgrantees were not aware
that costs had to be claimed in accordance with cost principles, or they were not aware of certain
requirements contained in the cost principles. Additionally, under the Administrative and PDAT grants,
the Board did not charge labor costs to grants in accordance with OMB Circular A-87.

         The most significant questioned costs relate to labor costs being charged to Corporation awards
based on budgets or estimated levels of effort. OMB Circulars A-87 and A-122 require that claimed labor
costs must be supported by after-the-fact activity reports for each employee (professionals and
nonprofessionals) whose compensation is charged, in whole or in part, directly to awards. In certain cases
budgets may be charged during the year for easier accounting, but comparisons and adjustments to actual
effort level must be made. Four subrecipient sites did not have procedures in place to ensure proper
allocation of labor charges: Public Allies, HACM, Ashland, and Harambee.
         Additionally, subrecipients claimed other direct costs that were unallowable in accordance with
the applicable cost circular. Subrecipients claimed unallowable costs for consulting fees that exceeded
daily limits; unnecessary costs, and costs not allocated appropriately to the grant, evidence that the
subrecipients were not aware of the cost principles or certain provisions of the applicable circular.

       Finally, we noted that subrecipients could not always support claimed costs. Documentation may
have been lost, or proper support may not have been maintained.

         The Board noted that they have adjusted staff assignments to eliminate staff working on multiple
grants, therefore no allocation of time for Board staff is necessary. The Board also stated that they will
continue to provide subrecipients with information and training to ensure the allowability of charged
expenses by subrecipients.

         The Board recognizes that some member files lack education attainment documents. However,
the Board stated that it was their understanding that Corporation did not require the diploma or GED to be
in the file, or have a definitive policy. The Board noted that they will obtain this documentation at the
request of the Corporation.

         Recommendation: We recommend that the Corporation follow up with the Board to determine if
questioned and unsupported amounts should be disallowed and recovered. Additionally, we recommend
that the Corporation ensure that the Board strengthen policies and procedures to better train subrecipients
on the allowability of costs, and documentation required to support claimed costs.

2.      Certain subrecipients did not submit Financial Status Reports, progress reports, and
        member enrollment and exit forms in a timely manner.

        Financial Status Reports. Subrecipients are required to file a Financial Status Report (FSR)
with the Board quarterly for each program year. We noted exceptions, as follows:

                We reviewed three program years at Fox Cities. In those three years, 8 of 12 FSRs were
                submitted late.

                HACM filed two of eight FSRs after the due date during two program years.

                 Workforce filed one of five FSRs late in program year September 1,2000, through
                 December 3 1,2001.

                 Public Allies filed three of four FSRs late in one program year.

        Progress Reports. Subrecipients are required to submit progress reports at differing intervals,
depending on the grant or subgrant agreement, ranging from monthly to annually. We noted exceptions,
as follows:

                 Workforce filed one of four quarterly progress reports late.

         0       Fox Cities submitted only two of three progress reports in one program year, and both
                 were late. In the next program year, none of the three reports was submitted on time.

                 Public Allies submitted three of four progress reports late.

                 MTEC submitted three of four progress reports late.
         Member Enrollment and Exit Forms. These forms must be submitted to the Corporation no
later than 30 days after member enrollment and exit. We found exception at the following locations:


        Subrecipient                 Program Year         Files Tested     Files Submitted Late
        HACM                           1998-2000               9                     10
        Workforce                      1998-2001               16                    8
        Fox Cities                     1998-2001               15                    4
        Wausau                         1999-2001               6                     5
        Harambee                       1999-2001               4                     4
        Renewal Unlimited              1999-2001               6                     6
        Promise Fellows                1998-2001               8                     7
        DPI                            1999-2001               11                    13
        MTEC                           2000-200 1              10                    10



         The Board noted that they request financial and status reports from subrecipients prior to the
Corporation due date to allow the Board to review reports and make corrections. However, WBRS only
tracks the date of final submission, which may be different than the date it was originally submitted. The
Board also noted that there were considerable problems and challenges in the first year of implementing
WBRS, which may have affected the timeliness of reports.

       Recommendation: We recommend that the Board implement procedures to ensure timely
submission of all FSRs, progress reports, and member enrollment and exit forms.

3.      Certain subrecipients did not comply with program requirements.

        As part of its monitoring requirements, the Board is responsible for ensuring that subrecipients
are adequately trained in programmatic and grant requirements. Our testing of subrecipient member files
disclosed that subrecipients were not complying with program requirements as follows:

                Member files at several subrecipients were missing documentation on mid-term or final
                evaluations. Grantees are required to conduct at least mid-term and end-of-term
                evaluations on each member's performance. AmeriCorps Special Provisions, Member
                Records and Confidentiality, stipulates that evaluations are to be performed to document
                assignments and to document that members met other performance criteria
                communicated at the beginning of the service term. The following subrecipient files
                were missing these evaluations:

                                                                    Number of Files
                    Subrecipient                           Tested      Missing Evaluations
                    HACM
                    Workforce
                    Fox Cities
                    Ashland
                    Promise Fellows
                    DPI
               Five subrecipient contracts did not include all required provisions. Grantees must ensure
               that members sign contracts that include requirements stipulated in AmeriCorps Special
               Provisions, Training, Supervision and Support. Specifically, Renewal Unlimited did not
               have evidence of proper parental consent for all members under the age of 18, as required
               be the AmeriCorps Special Provisions, Member Eligibility, Recruitment and Selection.

               Indianhead did not record training hours on their timesheets. Two current members were
               interviewed. During that interview, those members noted that they had not received any
               required training.

               Based on an investigation by the Board, 11 AmeriCorps members at MCSC earned
               education awards in excess of amounts to which they were entitled. The amount
               questioned is $6,293. Additionally, members were paid living allowances in excess of
               the maximum in the amount of $33,707.

                In PY 1998-1999, two members at HACM received living allowance payments of $658
                and $909 in excess of the maximum contract amount of $8,730. These costs were
                claimed as matching expenditures.

        The Board noted that the first year of implementing WBRS caused problems and challenges in
reporting member information and that it will continue to collect all member contracts to ensure
compliance with provisions. The Board believes that the Indianhead members did receive proper training,
and that taking the member statements was not a fair assessment. Finally, the Board noted that the
problems at MCSC were identified by the Board and brought to the attention of the Corporation, and that
the Board appears to have been criticized for identifying the issues and responding appropriately.

        Recommendation: We recommend that the Board strengthen its training efforts and support to
subrecipients for the various grant requirements, including documenting member participation, preparing
member performance evaluations, including necessary and appropriate provisions in member contracts,
and obtaining parental consent forms.

4.      The Board and its subrecipients did not meet matching requirements.

         The Board did not meet its matching requirements under the two Administrative Grants.
Additionally, we reviewed claimed matching costs at all sampled subrecipients, and noted that 5 out of 18
claimed unallowable or unsupported matching costs. Because of these unallowable or unsupported match
costs, four of the five subrecipients did not meet their matching requirements stated in the AmeriCorps
Provisions. This was primarily due to unallowable or unsupported claimed matching costs.
                Administrative Grants. The Board relied on two other state agencies, the Departments
                of Commerce and Health and Family Services, to accumulate and report matching costs
                under the Board's Administrative Grant Nos. 94ASCWI048 and 01ASCWI048 with the
                Corporation. The amount of required match was reported on quarterly FSRs. A
                spreadsheet was provided to detail claimed matching costs by cost category. These
                claimed matching costs are not, however, accumulated in an identified cost code in the
                state's accounting system, nor are they separately identified as matching costs for these
                federal awards. Several of the costs claimed could not be identified in the accounting
                system or adequately supported. Additionally, claimed costs for in-kind contributions
                were unallowable or inadequately valued. Finally, claimed costs included mathematical
                errors. As a result, many originally claimed costs were unallowable or unsupported.
                DHFS identified additional programs or expenses that they believe met the matching
                requirements. As discussed in the notes to Schedules A and B, we questioned claimed
                Corporation-share costs because the revised claim of matching costs will be reviewed for
                eligibility by the Corporation.

                The Board noted that it will continue to work with the Corporation to document their
                administrative match, and that the audit report is misleading; making it appear that the
                Board did not have the necessary documentation to support costs incurred.

                Subrecipient Match Costs. Many costs claimed by subrecipients to meet matching
                requirements were either unallowable or unsupported due to the unallowable or
                unsupported reimbursed costs, as noted throughout this report. Additionally, certain
                subrecipients had additional unallowable or unsupported matching costs due to
                unavailable records, lack of adequate time reporting or inadequate cost allocation plans.
                Although the overall matching requirements for the grants were met, individual
                subrecipients may not have met their matching requirements.

                The Board noted that questioned subrecipient match is affected by questioning costs due
                to a lack of High School DiplomaIGED documentation, and complicated member hour
                tracking systems. Their comments regarding those questioned costs are noted elsewhere.
                The Board will continue to work with the programs to improve their tracking systems and
                their efforts demonstrate continuous improvement.

         Recommendation. We recommend the Board improve controls over accumulating and reporting
its required matching costs and strengthen policies and procedures to ensure subrecipients are aware that
matching costs must be allowable and properly supported.

5.      Certain subrecipients did not ensure that member eligibility requirements were met.

        As a part of its monitoring requirements, the Board is responsible for ensuring that subrecipients
are properly meeting eligibility requirements. We found that subrecipients were not complying with
various eligibility requirements as follows:
                Several subrecipients could not provide sufficient information to support member
                citizenship status. According to 45 CFR, Subpart 2522.20O(b)(l), to be eligible, an
                individual must be a citizen, national, or lawful permanent resident alien of the United
                States. Subrecipients did not maintain information on citizenship because they were
                informed by the Board that they were not to make copies of Birth Certificates. However,
                in many cases, the subrecipients did not document that the Birth Certificates were
                viewed. The Board noted that they provided guidance on requiring certain documents be
                reviewed in conjunction with completing the 1-9 Forms. This confusion lead to the
                development of a State form that requires the subrecipients to view appropriate
                documents.

                Member files at several subrecipient sites did not always include high school diplomas or
                equivalent records. Under 45 CFR, Subpart 2522.200(a)(2)(ii), if a member does not
                have a high school diploma or equivalent upon enrollment, the grantee must obtain a
                member's written agreement to obtain a high school diploma or equivalent before using
                the education award. Failure to obtain this information could result in education awards
                to ineligible individuals.

                According to AmeriCorps Special Provisions, Member Eligibility, Recruitment and
                Selection, programs that require members to have substantial direct contact with children
                must conduct criminal record checks on these members and maintain related
                documentation in member files. Failure to perform these background checks could result
                in children being exposed to members with a history of criminal violations. Although not
                all members may have been required to have them, the member files included the same
                job description which indicated their involvement with children.

                The Board disagrees that the members had 'substantial' contact with children, and that
                the audit did not recognize the difference between substantial and minimal. Also, the
                Board feels that only a few members had contact with children, as noted in monitoring
                reports and the program's response to this audit. The auditors believe that the definition
                of substantial contact, as it is used in the CFR, should be intrepreted by the Corporation.
                Additionally, the job description included in every member file noted contact with
                children, regardless of the program's response to the draft audit report.


       Recommendation. We recommend the Board improve controls over assuring that subrecipients
are aware of member eligibility requirements and that adequate documentation is required to be
maintained to support compliance with those requirements.

6.      The Board should improve financial monitoring of subrecipients.

         The Board is responsible for ensuring that its subrecipients are aware of and comply with all grant
financial management requirements. According to 45 CFR, Subpart 2541.4OO(a), grantees must monitor
grant and subgrant supported activities to assure compliance with applicable federal requirements and
assure that performance goals are being achieved. Specific weaknesses in financial management or
reporting are described below:

                Many subrecipients did not adequately identify Corporation funds from the Board on
                their Schedule of Expenditures under Federal Awards, as required by OMB Circular A-
                133. CFDA number and title, award name and number, award year, the name of the
                Federal funding agency and identification of pass-through funds are required for all
Federal expenditures. During our review, we noted that the following audit reports
identified the incorrect amount of Corporation expenditures:

        Wausau. Corporation expenditures were not reported on Wausau's FY 2000 or
        FY 2001 Schedule of Expenditures under Federal Awards.

        North Central CAP. The grantor agency was listed as Department of
        Commerce (DOC), not DOA (which houses the Board) for FYs 1999 and 2000.

        MCSC. Amounts reported in MCSC's A-133 audit report were higher than
        Corporation funds received. Additionally, the grantor agency was listed as DOC,
        not DOA, for FYs 1999 and 2000.

        WARS. The grantor agency was listed as DOC, not DOA, for FYs 1999 and
        2000.

        Ashland. Ashland's A-133 audit report did not identify any Corporation
        expenditures and also did not accurately identify a conflict of interest created
        because the auditor also performs accounting services for the subrecipient.

        HACM. Costs are not properly identified as a pass-through from DOA.

        Harambee. Harambee's A-133 audit report did not identify any Corporation
        expenditures.

        MTEC. DOA incorrectly noted on MTEC's A-133 audit report that no funds
        were paid to MTEC. However, MTEC did receive a subgrant under the
        education award-only grant, and expenditures should have been reported.

A significant amount of subrecipient audit reports await review by DOA. The Board has
delegated the responsibility for obtaining and reviewing subrecipient OMB Circular A-
133, Audits of States, Local Governments, and Non-Pro$t Organizations, reports to DOA
staff. For reasons of limited staffing, however, DOA had not yet reviewed many reports
or reconciled them to payments made from the State accounting system.

The Board did not have adequate policies or procedures to ensure that subrecipients
receive audits in accordance with OMB Circular A-133 when necessary, or that the Board
received these reports on a timely basis. Board files did not always include the required
OMB Circular A-133 reports, and we found no evidence that the audits were requested.
According to 45 CFR, Subpart 2541.260(a), the Board is required to determine if State or
local subrecipients have met OMB Circular A-133 audit requirements and determine if
their financial reports require any adjustments.

The Board required DPI to review audit reports provided on each CESA to determine if
Corporation grant funds were adequately reported or if there were any findings on these
funds. DPI did not, however reconcile Corporation funds awarded through the Board to
expenditures reported in the audit reports.

Internal control weaknesses, compliance issues, and cost findings reported on OMB
Circular A-133 reports for Corporation funds were not cleared within the six-month time
period allowed.
        In our audit of selected subrecipients, we noted the following conditions, which evidence the need
for improvements in the Board's financial monitoring of subrecipients:

                Claimed costs reported by subrecipients could not be supported (or easily supported) by
                its accounting system.

                Staff labor hours charged by subrecipients to Corporation grants were not adequately
                supported in accordance with OMB Circular A-122. Labor costs must reflect an after-
                the-fact determination of labor charges. At four sites (HACM, Public Allies, Ashland,
                and Harambee) labor costs charged to the grants represented budgeted amounts, budgeted
                effort levels, or estimates of effort levels worked by employees.

                Costs were not reviewed before they were charged to the grant. Ashland did not
                consistently charge like transactions to the same accounting code. Also, it did not have
                an adequate labor distribution system. We noted that it did not properly allocate vacation
                and sick leave among all projects and did not appropriately allocate overtime costs to the
                grant. Additionally, DPI charged member training costs to the incorrect program year,
                and claimed costs associated with another Federal program.

         The Board noted that DOA's audit review procedures include notifying subrecipients when
presentation errors are identified. Due to staffing issues, timely reviews were not completed on some of
the FY 2000 and 2001 audits. The department in charge of this review is currently fully staffed, and audit
reviews are now being completed in a timely manner. The Board also noted that it provided a letter to the
auditors from DPI noting that they perform annual audit reviews on the CESAs, and that under State law
DPI is required to report findings to DOA. Additionally, in the future, the Board will review CESA
audits to ensure Corporation funds are reconciled with awards and expenditures.

        Recommendation: We recommend that the Board review its financial monitoring procedures and
make revisions necessary to ensure that all significant grant financial requirements are communicated to
subrecipients and that subrecipient compliance with the requirements is adequately monitored. We also
recommend that the Board consider performing risk-based assessments on a regular basis to select
subrecipients for financial monitoring site visits. The site visits should include reconciling claimed costs
to the accounting system, and provide a reconciliation of claimed costs to amounts reported on
subrecipients' OMB Circular A-133 audit reports.


7.      The Board staff did not include sufficient financial information on some subrecipients for
        the Board members during the subgrant award process.

         The Board did not include past performance results, adequacy of financial systems, results of
prior OMB Circular A-133 reports, or prior site monitoring results during the subgrant award process.
Subrecipient selections are made by Board members who receive information prepared by Board
employees on each potential subrecipient. While Board employees may be aware of subrecipient past
performance (on Corporation or other Federal grants), this information is not required to be included on
the summary provided to Board members for evaluation. Additionally, Board employees did not ensure
that all criteria listed above is obtained or evaluated as they gather information for the Board member
package. According to 45 CFR, Subpart 2522.410(b)(2)(ii), the Corporation will also consider an
organization's capacity to carry out the program, based on the past performance of the organization or
program. This same type of consideration should be used by the Board to evaluate potential awards.
        Failure to include this financial information in the grant award process may result in awards to
subrecipients with histories of internal control weakness or compliance issues. Additionally, past
financial performance must be summarized and provided to the individuals who are part of the selection
process. Board management stated that they are aware of the past fiscal performance of potential
subrecipients and would include significant issues in the documentation provided to the selection team.

        The Board noted that it has revised its grant recommendation process. Financial information will
be provided to the Board during the grant selection process. In the past, only issues that created financial
risk were reported to the Board members.

       Recommendation: We recommend that the Board evaluate all aspects of subrecipient past
performance and consistently include past performance results in information provided to the selection
team.

8.      Certain subrecipients did not comply with record-retention policies.

         Several subrecipients were unaware of record-retention requirements under their subgrant
agreement with the Board. According to 45 CFR, Subpart 2541.420(b), grant records are to be retained
for three years from the date that the grantee submits its final expenditure report. We noted the following:

                Fox Cities did not follow AmeriCorps' record-retention policy. Instead, it kept records
                based on IRS requirements for tax purposes.

                The staff at Indianhead was unaware that the AmeriCorps grant had specific record-
                retention policies.

                Renewal Unlimited did not maintain member contracts for PY 2000-200 1.

                Documentation at several subrecipient locations was not available to support claimed
                costs at the time of our review as follows:

                 .       Public Allies could not provide support to show how it allocated costs among
                         projects. Additionally, it did not maintain documentation to support all costs
                         claimed on the FSRs and PERs.

                         Wausau could not support a labor allocation charge.

                         Harambee could not provide support to show how it allocated costs among
                         projects.

                 .       One CESA No. 2 subrecipient could not provide documentation to support
                         claimed costs.

                 Documentation was not available at several locations to support member eligibility, as
                 discussed in finding five.
        While many of the missing items were later found by the subrecipients, or obtained from other
sources in order to support claimed costs, their files did not have the required supporting documentation
on hand. The Board noted that it will include record retention policies in future awards. The Board also
included record retention dates in their official closeout notification to the AmeriCorps programs.

        Recommendation: We recommend that the Board take steps to ensure that all subrecipients are
informed of, and comply with, the Corporation record-retention requirements by incorporating record-
retention requirements in its subgrant agreements and providing training and education.

9.      The Board should improve monitoring controls over those requirements passed on to other
        state agencies.

         The Board historically awarded certain of its grant awards in their entirety to other State agencies
and initiated Memorandums of Understanding (MOU) indicating the State agency responsibility for all
grant requirements. Additionally, certain grant provisions such as financial reporting, certain financial
subrecipient monitoring, and matching requirements are passed on to other State agencies. The Board is,
however, ultimately responsible for activities and funds awarded to it by the Corporation. Many
subrecipients of these grants awarded to other State agencies did not receive the same level of oversight
as the Board applied to its subrecipients.

         The Board has established good internal controls to assure that subrecipients comply with grant
provisions and perform necessary grant requirements in a timely manner. For awards passed on to other
State agencies, those State agencies do not follow the same stringent controls. Supporting schedules for
Governor's Initiative, Learn and Serve, and AmericaReads show more internal control weaknesses and
compliance issues than were identified in supporting schedules for AmeriCorps subgrantees, which are
directly monitored by the Board.

        Additionally, DPI and DOA did not meet grant-administration responsibilities. For example:

                 DPI passed on the Learn and Serve grant to a number of CESAs, but did not review
                 annual OMB Circular A- 133 audit reports on each CESA to determine if Corporation
                 grant funds were accurately reported or if findings were noted, as required by the circular.

        0        DPI did not pass down necessary grant provisions to its subrecipients.

                 DOA did not meet grant matching requirements under the Governor's Initiative grant.

        The Board also entered into agreements with the Department of Commerce and the Department
of Health and Family Services to provide matching requirements under its administrative grants. As
noted in finding four above, the Board did not adequately accumulate, report, or support matching costs.

         The Board noted that when it entered into MOUs with these State agencies, it assumed they
would take responsibility for all grant provisions while the Board treats these other State agencies as
typical subrecipients. The State agencies had significant other Federal funding and implemented the same
controls over their Corporation grants as used for their other funding sources. These controls were not
stringent enough to meet Corporation requirements. The Board noted that it entered into MOUs because
it has limited staff.
       Finally, we noted certain weaknesses in the review of subrecipient A-133 reports that are
reviewed by DOA as noted in finding six above.

        The Board strongly disagreed that they should implement additional controls over those programs
(or processes) that are administered through MOUs with other State agencies. The recommendation was
revised to delete the relationship between using MOUs and weaker subrecipient controls.

       Recommendation: We recommend that the Board implement additional controls over
subrecipient monitoring and grant compliance for grants passed on to other State agencies.


        This report is intended solely for the information and use of the Office of Inspector General,
Corporation management, the Board, and the U.S. Congress and should not be used by anyone other than
these specified parties.

                                                COTTON & COMPANY LLP



                                                Sam ~ . ~ ~ a dC#A,
                                                                l e CGFM
                                                                    ~ ,
                                                Partner
                 STATUS OF FINDINGS FROM THE PREAUDIT SURVEY OF
                WISCONSIN NATIONAL AND COMMUNITY SERVICE BOARD
                   OFFICE OF INSPECTOR GENERAL REPORT NO. 00-29


         The findings listed below are taken from Office of Inspector General Report No. 00-29. The
status of each finding is addressed below:

1.      The Board did not maintain signed conflict of interest forms as required for renewal
        applications.

         Current Status: In the Board's response to the pre-audit survey report, it provided
documentation necessary to support this finding. During our audit, we verified that required conflict-of-
interest forms were contained in the files with no exceptions. No further action is recommended.

2.      Some documentation to support grant-making decisions was missing.

         Current Status: In the Board response to the pre-audit survey report, it provided documentation
necessary to support the finding, except for one rejection letter. Additionally, this finding related to
documentation missing in 1995 and 1996 project files, which was outside our audit scope. During our
audit, we verified that required information was contained in the selection materials and we included an
internal control finding on this issue (Finding Seven). We recommended that the Board include
additional information in packages used by Board members in grant-making decisions, such as:

                Comments on the adequacy of subrecipient financial management systems.

                Results of past OMB Circular A-133 audits performed on subrecipients.

                Past performance on similar projects (for new subrecipients).

                Significant issues arising from past performance on prior-year grants (for recurring
                subrecipients).

3.      Lack of assessment of subrecipient applicants' Financial Systems during the selection
        process.

        Current Status: We reviewed historic and current processes used to assess the financial
adequacy of potential subrecipients. The Board reviews financial adequacy, but does not include results
in packages provided to Board members when making subrecipient selections, as discussed above and
included this in our report on internal control (Finding Seven).
4.     Lack of evidence of Financial Status Report review, including matching recalculation.

        Current Status: The Board noted that is has improved its process regarding financial review and
matching requirements. We reviewed the current process and tested those procedures and noted no
problems with current procedures, including procedures to assure that matching requirements were met
and FSRs were accurate and supported by subrecipient accounting records. During site visit testing,
however, we identified other financial monitoring issues that are included in our Report on Compliance
and Internal Control (Finding Six).

5.      Late submission of FSRs.

        Current Status: During our review of current submission dates, we noted that while FSRs may
be a few days late on occasion, project directors consistently receive timely submission of PERs, which
include the same information contained in FSRs. Invoices are reconciled to FSRs and also to Board
accounting reports that note expenditures made to each subrecipient. No further action is recommended.

6.      Inability to determine timeliness of receipt of FSRs.

        Current Status: The Corporation has implemented an electronic system for subrecipient
completion of FSRs and other information submitted to the Board and the Corporation. All items include
an electronic signature and are dated. No further action is recommended.

7.      The Board did not maintain all required FSRs.

         Current Status: The Corporation has implemented an electronic system for subrecipient
completion of FSRs and other information submitted to the Board and the Corporation. All items include
an electronic signature and are dated. All FSRs that we requested during our review were provided. No
further action is recommended.

8.      The evaluating and monitoring system for subgrantees needs to be improved at the Board.

         Current Status: The Board has strong controls over the review of subrecipients, including
financial reviews and site visits. We did, however, note a subrecipient monitoring weakness when the
Board passes grants to other State governmental agencies or departments, and the agencies or departments
further pass along the grants to sites. In those situations, the departments or agencies do not incorporate
the same strong policies and procedures over subrecipients used by the Board. We discuss this finding in
our Report on Compliance and Internal Control (Finding Nine).

9.      Lack of Documentation of review of OMB Circular A-133 Reports or other audit reports
        from subrecipients.

        Current Status: The individual responsible for reviewing OMB Circular A-133 reports works at
DOA. The Board has historically had sufficient documentation of OMB Circular A-133 reviews, but we
noted several weaknesses in this area (Finding Six).
                                         APPENDIX A




BOARD'S RESPONSE TO DRAFT AUDIT REPORT
Jim Doyle                                                                                Matling Address:
Govei-nor                                                                                Post Off~ceBox 8916
                                                                                         Mad~son.WI 53708
Thomas Metcalfe
Pres~dent                                                                                Recorded Message
                                                                                         (800) 620-8307 or
Thomas H. Devine
                                                                                         (608) 267-5226
Exec~~tive
        Director
Telephone. (608) 261-6776



                                  Wisconsin National and Community Service Board
                                  1 West W~lsonStreet. Room 518, Mad~son,W~sconsm

     June 19.2003


     Mr. J. Russell George, Inspector General
     Corporation for National & Community Service
     1201 New York Avenue N.W.
     Washington D.C. 20525

     Dear Mr. George:

     Enclosed please find the response of the Wisconsin National and Community Service Board to the
     Draft lncurred Cost Audit Report which was forwarded to us for comment on June 10,2003. The
     members of the Wisconsin National and Community Service Board and its staff, welcome the
     opportunity to respond to the Draft lncurred Cost Audit Report prepared for your office by Cotton &
     Company. Our response consists of three sections: 1) Response to Findings, 2) Response by Audit
     Schedules and 3) Support Documentation.

     The Board is pleased that its systems have developed and demonstrate continuous improvement.
     There are definite inconsistencies between the Pre-Audit Survey and the report issued by Cotton &
     Company. The Board accepts that the audit report reflects areas that may need improvements. A
     major concern for the Board is the lack of recognition for the improvements by the Board and its
     subrecipients. The failure to recognize site visits, monitoring reports and correspondence between
     the Board and programs is a disservice to the efforts to improve accountability and performance of
     national service programs in Wisconsin. One example is the flawed member time tracking systems
     identified by the Board's staff and then by the auditors after the fact. Monitoring reports clearly
     demonstrate that the flawed tracking systems in two programs were identified by the Board's staff
     and processed with the programs until the systems reflected accurate service hours. In fact, the
     Board requested that your office visit one of the programs to ensure the program's intent was not a
     misappropriation, abuse or fraud. While the program misused the funding due to a flawed
     management system, it was unintentional as documented by your office. Cotton & Company's failure
     to recognize that the Board identified the issues and worked with the programs to correct the issues
     sends a discouraging message in regard to the Board's oversight role.

     The auditors questioned costs due to the lack of a High School Diploma/GED in member files. The
     Corporation's guidance around this issue was not clear until the recent clarification of the policy by
     the Corporation that supports how the Board had documented educational accomplishments of
     members. The questioning of education awards due to the lack of eligibility documentation is Cotton
     & Company's interpretation of the requirements. The risk of using the education award is minimal
     due to the higher education enrollment requirements.
The final major concern is the questioning of administrative match. It is very clear that the original
Draft Audit Report, dated May 20, 2003, questioned $21,689 of costs due to the lack of match
documentation. The revised Draft Audit Report, dated June 20, 2003, questions $305,157 of
expenses due to the lack of match documentation. The Board understands that a decision has been
made to review the match expenses during the audit resolution process. Unfortunately the
information in the Audit Report will be misleading to anyone reading the report. The original Draft
Audit Report included Cotton & Company's approval of $588,627 of administrative match.

The Board strongly disagrees with Cotton & Company's recommendation that the Board provide
greater oversight to other state agencies that receive funding from the Board. Other state agencies
are treated the same as any other subrecipient. It is important to recognize that the Board's risk
management strategy considers that state agencies are in a position to defend and repay any
disallowed cost that may be identified by the WNCSB, the Corporation or auditors. Yet the Board has
monitored and visited the other state agency programs as they do any multi-site program. The issue
related to MOUs is a contracting issue not a performance issue. In Wisconsin, MOUs are the vehicle
used to contract within and between state agencies. The MOUs obligate other state agencies as a
Program Contract obligates other subrecipients of the Board.

The Board has provided training for subrecipients in regard to match allowability and support.
Corporation consultants have been used to provide training and Cotton & Company failed to
recognize the improvement of program accountability. In addition, the recommendation related to
member eligibility requirements is very misleading. The Draft Report has four members in three
programs that were identified as missing citizenship documentation. The High School Diploma IGED
documentation methods used in Wisconsin are acceptable to Corporation policy and should not be
included in the report. Finally, Cotton & Company failed to define substantial contact with children
when questioning the eligibility of members for the lack of criminal record checks. Monitoring Reports
clearly disclosed that most of the members in one program did not tutor children due to the population
that enrolled in the program. In fact, only one background check of members that actually tutored
children was missing from member files. The auditors only considered that the original member
contracts stated that members would be tutoring. The Board can accept the criticism that member
contracts should have been adjusted for those members not tutoring children. The Board is in
agreement with the program that the members that did tutor spent minimal supervised service time
participating in that activity.

The following three sections are incorporated into Wisconsin's response and include more detailed
explanations to the specific questioned costs and recommendations made by Cotton & Company. If
you need any further assistance please contact Thomas H. Devine at 608-261-6716.




WN&B     president ,''                    WNCSB Executive Director
               /'


Cc.   WNCSB Members
      Peg Rosenberry, CNCS
                                                        Response to Findings: Section 1

1. The Board claimed unallowable cost and costs for which no documentation
   was provided to support allowability.

The WNCSB provided training for all subgrantees related to the requirements contained
in the cost principles. Coleman and Williams provided training for programs on such
topics as audit documentation, record retention and member eligibility. Cotton &
Company identified some allowability issues and WNCSB guidance, site visits and
Monitoring Reports addressed many of the identified issues. AmeriCorps Program
Orientations and Program Director Meetings provided guidance for programs for
allowable costs and the documentation of costs. The closeout guidance from the CNCS
caused some confusion for State Commissions and directly relates to many of the
issues identified by Cotton & Company.

A major issue identified by Cotton & Company was the lack of documentation of High
School DiplomaIGED in member files. The WNCSB recognizes that member files
lacked education attainment documents. Wisconsin identified the requirement as more
of an Education Award Trust issue than an eligibility issue. Our primary focus was on
the members that identified themselves as not having a High School DiplomaIGED.
These members were informed that they must work on completing the high schoolIGED
requirements during their term of service and that they could not use the education
award until they received their high school diplomaIGED. The High School Diploma1
GED documentation was seen as a duplication of higher education institution
requirements. Those statutory restrictions for using the education award reduced the
risk in regards to eligibility. The Corporation policy does not require that a High School
DiplomaIGED to be in a member's file. The Corporation, although they said that people
should have a high school diploma1GED or agree to get one before using the education
award, never did have a definitive policy about whether or not the actual diploma or
GED should be in the member's file. The Corporation required that records needed to
be kept about the level of educational attainment and date of high school diploma or
equivalent certificate. The self-disclosure by members, for the level of education
attainment, was retained on a member's application. Technically the High School
DiplomaIGED is not in member files but the documentation of the level of education
achievement was on the member application. If the CNCS wants this documentation for
past members the WNCSB will aggressively pursue securing High School DiplomaIGED
for past members. A better use of resources is to ensure compliance with the present
CNCS policy. The CNCS policy clarification addressed this issue and does not require
the High School Diploma to be in a member's file.

A second major issue is related to the member time tracking systems in two programs
and was identified by WNCSB staff and documented by Monitoring Reports for both
programs. The programs continued to make improvements and demonstrated efforts
and their intent to comply with the requirements. In both situations the time tracking
errors were due to flawed management systems. Both programs had members
providing service that addressed community needs. The questioned costs reflect the
lack of acceptable documentation or the application of a flawed management system.
The programs did not intend to misrepresent the member service hours. It is very clear
                                                            Response to Findings: Section 1

that the WNCSB and the programs demonstrated continuous improvement and
developed acceptable tracking systems. A review of Monitoring Reports will
demonstrate that acceptable tracking systems were developed and used by the
programs.

Cotton & Company has identified that the WNCSB did not charge labor costs to grants
in accordance with OMB Circular A-87. All WNCSB personnel are required to complete
Time and Effort Reports to document the allocation of effort to each assigned grant.
These reports are tracked on a spreadsheet that is maintained to support the costs and
efforts of WNCSB personnel. In addition, the accounting unit provides a quarterly
certification form for WNCSB personnel. Allocations did not vary more than 10% and by
the end of the year allocations were with in a minor variance. We now understand that
Wisconsin should have completed adjustments to payroll to maintain the appropriate
payment from each grant for each reporting period. The allocation of staff time was
between PDAT and Administrative Grants from the Corporation. Since January 1, 2003
the WNCSB has adjusted staff assignments to eliminate multiple grant allocations of
personnel time.

Subrecipients identified by Cotton & Company as not having procedures in place for
allocating expenses will be required to submit policy to support the OMB-87 or A-122
requirements for claimed labor costs. A letter from their auditor will support program
policies. WNCSB staff will monitor the policy implementation by each program.

It is impossible to cover all of the potential allowability issues through training (i.e. tattoo
removal). The WNCSB will continue to provide subrecipients with information and
training to ensure the allowability of charged expenses by subrecipients. The WNCSB
will also continue to perform annual fiscal desk reviews of subrecipients to verify the
allowability of claimed costs.

2. Certain subrecipients did not submit Financial Status Reports, Progress
   Reports, and member enrollment and exit forms in a timely manner.

The WNCSB requires programs to submit financial status and progress reports prior to
the CNCS due date. This allows the WNCSB to review the reports and have the
programs make corrections prior to submitting the reports to the CNCS. WBRS tracks
the dates when programs work on and make final submission of reports. The original
submission date of the report cannot be tracked through WBRS if the report has been
revised. Often, a program will submit a report by the WNCSB deadline and, after review
by the WNCSB, will be asked to make revisions or changes. The final approval occurs
in WBRS after the program is finished making revisions or changes, so the date on
which the report is finally approved is different than the due date listed in the contract.
WBRS tracks the original submission date but the final date approved by the WNCSB
staff is after the contracted due date if changes were required of a program by the
WNCSB staff. The information can be gathered to demonstrate the original
submissions dates in WBRS but it is an inefficient use of staff time to recreate the
records. The primary issue should be the reporting of the WNCSB to the CNCS.
                                                         Response to Findings: Section 1


Cotton & Company failed to consider the problems and challenges of the first year of
implementing WBRS and did not factor the new system's problems and how they
effected the timeliness of submitting reports. The WNCSB is now using timely reporting
as a primary application selection criterion for existing programs.

3. Certain subrecipients did not comply with program requirements.

Member enrollment and exit forms are easily monitored through WBRS and the new
commitment notification requirement will enhance timely completion of member
enrollment forms. Cotton & Company failed to consider the problems and challenges of
using WBRS during the first year of the reporting system. Some programs had
problems with the timely entry of the Program Profile by the CNCS and the new system
required adjustments at the CNCS, WNCSB and program levels.

Member evaluations are reviewed during site visits and monitoring reports reflect
identified deficiencies. The WNCSB staff has provided guidance to programs for
member evaluations and also provided sample forms to the programs.

The WNCSB will continue to collect all member contracts used by programs to ensure
compliance with the provisions. WNCSB staff has reviewed these documents during
site visits and programs have been provided with guidance and sample contract forms
for members.

Clearly, lndianhead provide training for the "at-risk" youth served by the program. It is
not fair to interview two "at-risk" youth serving in a program and accept their response
that they did not get any training with out verifying the statements with program staff. At
minimum these members received training in their service activities, how to build a
house, and the members participated in GED instruction.

The WNCSB identified the issues at MCSC and called the OIG to complete the
investigation. It seems that the WNCSB is being criticized for identifying the issues and
appropriately responding to the issues.

4. The Board and its subrecipients did not meet match requirements.

The Board claimed sufficient match and due to Cotton & Company questioning the
allowability of costs some of the match was recalculated and resulted in less than the
required match amount. The WNCSB will continue to work with the CNCS during the
audit resolution process to document the administrative match. It is unfortunate that
Cotton & Company identified $21,689 of questioned costs in the original Draft Audit
Report, May 20, 2003, and then questioned $305,157 of match in the final Draft Audit
Report, June 10,2003. It makes it appear as though Wisconsin does not have the
necessary documentation to support the incurred costs. It is unfortunate that the audit
report is misleading. We will work with the Corporation to correct the differences during
the audit resolution process.
                                                         Response to Findings: Section 1



It is important to recognize that the lack of High School DiplomaIGED in member files
had an effect on the recommendation by Cotton & Company. It is also important to
recognize the impact of the two programs that used flawed and complicated member
hour tracking systems. The WNCSB worked with the programs to improve their tracking
systems and their efforts demonstrate continuous improvement and that they intended
to comply with the requirements.

5. Certain subrecipients did not ensure that member eligibility requirements were
   met.

Three programs failed to provide citizenship documentation for four members
(Harambee - 2, MTEC - 1, Workforce - I).         The WNCSB has provided guidance to
programs to meet both CNCS and Wisconsin requirements related to eligibility. State of
Wisconsin law does not permit the copying of birth certificates. The WNCSB guided
programs through the complicated documentation of citizenship on 1-9 Forms by
requiring specific certification of specific documents. This caused some confusion and
eventually lead to the development of a state form that allows for program certification
of citizenship by viewing the appropriate documents.

The High School Diploma issue has been discussed in Item 1 of this Section of the
response.

The WNCSB strongly disagrees with the third bullet related to background checks.
While the auditors quote the AmeriCorps Special Provisions they fail to recognize the
difference between substantial and minimal direct contact with children. They also
failed to recognize that only a few members participated in the tutoring objective due to
the "at-risk" youth population served by the program and that only those members
should have the background checks in the file. While the member contracts should
have been modified, it is unreasonable to ignore the program's response and the
WNCSB's Monitoring Reports.

6. The Board should improve financial monitoring of subrecipients.

Wausau, Ashland and Harambee were subgrantees of a subrecipient of the Board and
the subrecipient would have contracted with the subgrantees. These programs
received funding from multiple sources from the Board's subrecipient to operate an "at-
risk" youth corps program model. In the future the subrecipient will be instructed to
provide information to their subgrantees that allows for proper identification of the
AmeriCorps funding in audits.

North Central CAP, MCSC, WARS, MTEC and HACM will receive guidance from the
WNCSB for their auditors to correctly identify the AmeriCorps funding in audit reports.

The Board requires applicants to provide their most resent audit with the submission of
the AmeriCorps grant application. For existing programs, the WNCSB communicates
                                                       Response to Findings: Section 1

the audit requirement in two ways. First, in the WNCSB Contract, #32, Audit
Requirement, states that "the Grantee shall contact an annual, single, or program-
specific audit in accordance with OMB Circular A-133.. ." Second, in the WNCSB
Contract Addendum, which is distributed each year with the WNCSB Contract, there is
a statement that each program is required to submit two copies of their most recent
audit to their WNCSB program officer. This requirement is reviewed with programs
each year during the contract negotiation calls, as the Contract Addendum is covered
item by item during each call.


DOA audit review procedures include notifying subrecipients when presentation errors
are identified in their audit reports. Due to staffing issues, timely reviews were not
completed on some of the 2000 and 2001 audits. As a result, presentation letters may
not have been sent to subrecipients in time to incorporate suggested changes into
subsequent audit reports. However, presentation letters were sent to seven of the eight
subrecipients noted and a review of the MTEC audit report was not required since total
expenditures of Federal awards were less than $300,000. At present, the financial
management department is fully staffed and audit reviews are completed in a timely
manner which will enable subrecipients to incorporate suggestions into subsequent
audit reports.

The Board's subrecipient audits represent a very small percentage of the total reports
reviewed for all Federal funding sources in DOA. We agree that due to staffing
shortages, there was a delay in our requests for reports as well as our follow-up
reviews. However, though this was the first year of WFS funding, contract language
clearly states the audit report requirement. DOA has policies and procedures in place
regarding audit report reminders, tracking, review and exemption letters. Each
subrecipient receives a contract, which clearly defines A-133 audit requirements.
However, a large percentage of Board's subrecipients receive less than $300,000 in
Federal funds annually, which exempts them from performing an A-133 audit. We have
increased our efforts to provide written notification of this exemption to our
subrecipients. DOA currently has procedures in place to monitor financial activity as
well as communicate grant requirements to subrecipients.

The Board disagrees with the recommendation related to DPI reviewing CESA audit
reports. Cotton & Company received a copy of a letter from DPI to the WNCSB that
stated that they do an audit review of the CESAs. Under state law DPI is required to
report any findings to the Department of Administration. In the future the WNCSB, if the
Board contracts with DPI and DPI subcontracts with the CESAs, will review CESA
audits to ensure they reconcile CNCS funds awarded to expenditures. Because DPI
provides substantial funding to the CESAs from other sources, and annually completes
audit reviews of CESAs; it was seen as a duplication of effort to complete a separate
review of each CESA audits.

The WNCSB will take a more active role in addressing audit findings to ensure the six-
month resolution requirement is met.
                                                        Response to Findings: Section 1


Some subrecipients had difficulty providing support documentation from their
accounting systems. The WNCSB will provide additional training with Walker and
Company to improve required support documentation of subrecipients. The WNCSB
will ensure that staff labor and operating allocation is included in the subrecipient
training by Walker and Company. The training will also include proper accounting for
any shared costs.

Ashland was a subgrantee of a subrecipient of the WNCSB. It is very clear that the
practices used are not acceptable and efforts will continue to ensure that all
subrecipients understand their role in monitoring their subgrantees. DPI inadvertently
charged the full training costs to AmeriCorps that should have been split between
AmeriCorps and VISTA. The original billing was split but the amount was incorrectly
entered into the accounting system.

7. The Board did not include sufficient financial information on some
   subrecipients for the Board members during the award granting process.

The WNCSB has revised it grant recommendation process to include financial
information for the board during the grant selection process. In the past only issues that
created financial risk were reported to the Board.

8. Certain subrecipients did not comply with record-retention policies.

Record retention policies will be included in the contracts to ensure that programs are
aware of the policies and timeframes. In the WNCSB Contract, #3 Scope of Work, (b)
Closeout Period, includes language for closeout procedures. We will add to this section
specific information about record retention requirements. Note that, in the WNCSB
official closeout notification to AmeriCorps programs, we specified the date until which
programs need to retain records. It is also important to recognize that when the CNCS
provided guidance related to closeout and record retention the WNCSB provided
program training by Coleman and Williams for subrecipients.

Documentation of member eligibility has been addressed throughout this response.

9. The Board should improve internal controls over MOUs with other state
   agencies.

The WNCSB strongly disagrees with Cotton & Company's recommendation. The
WNCSB treated other state agencies as they would any other subrecipient. If there is a
difference in treatment, it is due to the risk management strategy used by the WNCSB.
It is important to recognize that state agencies have resources that can be applied to
disallowed costs. Most non-profit agencies do not have the same access to resources
as state agencies. In addition, the WNCSB strongly disagree that less oversight is
given to other state agencies. America Reads and the Governor's Initiative were
monitored like any other multi-site AmeriCorps program. Learn and Serve was
                                                      Response to Findings: Section 1

monitored like a mini-grant program with maximum awards of approximately $3,000. A
Mini-Grant Compliance Form was used to monitor the Learn and Serve subgrantees.
The statewide nature of the programs run by state agencies creates different challenges
for the state agency subrecipients then for other AmeriCorps subrecipients.

MOUs are used by the Board because it is the standard tool used by state agencies
entering into inter or intra agency agreement. The use of MOUs has nothing to do with
staff capacity. The Board contracted with DPI to oversee the L&S CBO award due to
the WNCSB staff limitations at the time.

Again the WNCSB strongly disagrees with this recommendation by Cotton & Company.
                                                       Response by Schedule: Section 2

Section 2 of the WNCSB's response to the Incurred Audit of Grants Awarded to the
Wisconsin National and Community Service Board performed by Cotton & Company
LLP and identified as Audit Report No. 03-04 details the questioned costs for
allowability and support. The Consolidated Schedule of Claimed and Questioned Costs
Chart is on page 11 of the report and this response follows the questioned costs as
detailed on the chart. This section of the response to the questioned costs is
coordinated with the appropriate audit schedules and notes.

1. Allowability of Match for the 94SCSW1048 ($179,659) and 01SCSW1048
   ($125,498) Administrative Grants.

Schedules A and B: The questioned costs are misleading and do not reflect
Wisconsin's administrative match. At the time of reporting for these grants, the WNCSB
had identified sufficient match and perceived that the match was allowable and
supported with acceptable documentation. The WNCSB has substantial in-kind match
that was not reflected in the budgets. Support documentation was provided to Cotton &
Company and has been forwarded to the Corporation. The WNCSB has agreed to
review and negotiate the match documentation with the Corporation during the audit
resolution process. The following information provides some consideration of the
questioned cost issues.

The WNCSB moved from the Department of Commerce to the Department of Health
and Family Services in March of 1999. DHFS assumed the role of providing and
accounting for the administrative match at that time. In 2002, the person assigned to
account for the match at DHFS for the WNCSB retired and the transition to the newly
assigned person caused some confusion. During the yearlong audit process the
WNCSB and DHFS were able to identify and support sufficient documented match to
cover the questioned costs for the administrative awards. The support documentation
was provided to Cotton & Company during the audit process.

The draft of the Audit Report used for the Exit Conference on May 20, 2003 questioned
costs of $21,689 due to the lack of administrative match. The Audit Report dated June
20, 2003 was adjusted to $305,157 of questioned costs due to the lack of administrative
match. This is an extremely large variance and is very misleading to the reader of this
audit report. The WNCSB strongly objects to the questioning of these costs. Cotton &
Company reviewed support documentation and received additional documentation at
the exit conference for the questioned costs of $21,689. It is important to recognize that
Cotton & Company questioned the allowability of $40,354 of match support provided by
the WNCSB. Which means they accepted $585,627 of support documentation provided
during the audit. The WNCSB will continue to work on resolving the questioned costs
during the audit resolution process. We have submitted the match support
documentation for review and consideration by the Corporation.
                                                     Response by Schedule: Section 2

2. AmeriCorps Reads - 99ARCW1051- questioned cost for allowability ($4,973),
   and Education Awards Support ($30,714).

Schedule C: The WNCSB identified that DPI continued to make health care payments
for some members beyond their term of service for a total of $3,673. Cotton &
Company were informed of the situation and incorporated the expenses into the
questioned costs in the audit. A Periodic Expense Report was provided to the auditors
during the Exit Conference on May 20, 2003 to document the resolution of the
questioned costs. (Note 1)

DPI incorrectly charged $1,005 to the America Reads Grant that should have been
charged to the DPI VIST,4 Grant. Cotton & Company received a Periodic Expense
Report to document the adjustment and resolution of the questioned costs during the
Exit Conference on May 20, 2003. (Note 2)

The WNCSB identified that DPI inadvertently charged $295 to an unemployment claim
for a member twice. Cotton & Company were informed of the situation and incorporated
the expenses into the questioned costs in the audit. A copy of a check that resolved the
questioned costs was provided to Cotton & Company during the Exit Conference on
May 20, 2003. (Note 3)

Cotton & Company questioned $30,714 for education awards due to the lack of a High
School DiplomaIGED in member files. The questioning of these costs has been related
to the eligibility of the members. Wisconsin accepted self-disclosure by a member for
reporting the education level completed. The primary focus was for members that
identified that they had not completed their High School DiplomaIGED. These members
were required to sign a form that specified that they must work on completing the high
school1GED requirements during their term of service and that they could not use the
education award until they received their High School DiplomaIGED. In Wisconsin, this
issue was identified as an Education Award Trust issue related to the use of the
educational award not an eligiblity issue. The Corporation's recent policy clarification
accepts self-disclosure and supports that the $30,714 of questioned costs should not be
disallowed. The WNCSB has developed a form to help programs meet their eligibility
documentation requirements. (Note 4)

                              -
3. AmeriCorps Competitive 00ASCW1051- questioned Cost for Allowability
   ($286) and Support ($32,459).

Schedule D: WNCSB and Public Allies agrees that consulting fees exceeding the daily
maximum limit by $286. (Note 1)

The organization used an unacceptable cost allocation method that resulted in the
questioning of $32,459. It is important to recognize that the program has a single
mission and that all resources are used to accomplish that mission. The program is
working with their auditor to provide a response and the documentation of the cost
allocation of expenses. (Note2)
                                                      Response by Schedule: Section 2

The $500 of unreconciled claimed costs are being reviewed by the program.
Procedures are in place to ensure that all reports are prepared from the accounting
system.

WNCSB and the program agree that $500 of expenses could not be reconciled with the
accounting system. A new Executive Director and the accounting system caused some
issues for cost allocating expenses and reporting. The program's response to the
questioned costs demonstrates the intent of the program to comply with the
requirements. The program and the program's auditor are actively in pursuit of an
acceptable allocation system and these efforts will establish necessary corrective
actions. All FSRs and Periodic Expense Reports will be prepared from the accounting
system. (Note 4)

4. AmeriCorps Education Award - 99EDSW1051- Questioned Cost for Allowability
   ($500) and Education Awards Support ($4,725).

Schedule E: The program has made several attempts to secure the missing
documentation. The member has moved out of state and unfortunately the member has
not cooperated so the eligibility documentation has not been secured.

                          -
5. AmeriCorps Formula 94ASCW1051 - Questioned Costs for Allowability
   ($35,481), for Support ($186,721) and Education Award ($70,731) on Schedule
   F, F l , F2 and F3.

Schedule F-I: The WNCSB identified that MCSC had overpaid the stipend for several
members. The organization used a complicated tracking and reporting system to record
service hours for members. The system caused some members to receive stipend
payments greater than the maximum allowable stipend amount. On a daily basis
members punched in on a time clock for service hours and members signed these time
clock cards for their service hours. The "at-risk youth members participated in training
activities one day a week. The members signed a training log for training hours. Staff
then combined the time clock cards and the training log to create a timesheet for each
member for each pay period. These tracking methods were further compounded by the
use of an outside payroll company. The stipend required a constant number of hours
for each member in order to make equal payments to the members. The organization
failed to track the total number of hours accurately and this caused payments over the
maximum stipend for several members.

The WNCSB investigated the issues and requested that the OIG further the
investigation to ensure that the intent of the organization was not to misuse the federal
funds. The WNCSB's finding were confirmed by the OIG investigation and concluded
that the program management systems were the cause of problem. The flawed service
hour tracking systems of the organization caused the inaccurate calculations of member
hours and lead to the overpayment of the stipend. The $33,708 over payment of
stipends and $6,293 in education awards questioned by the auditors directly relates to
the flawed time tracking system used by the organization and explained in the above
                                                      Response by Schedule: Section 2

paragraphs. Both the OIG and WNCSB concluded that the program unintentionally
overpaid the member stipend and awarded excess education award amounts to
members. The WNCSB is requesting that the CNCS consider the organization's intent
and not disallow the $40,001 of funding questioned by Cotton & Company. (Note 1)

The $1,773 of recalculated administrative costs should not be disallowed due to the
results of the OIG and WNCSB investigations and the intent of the program to comply
with the requirements should be the primary consideration. (Note 2)

Schedule F-2: One member that actually tutored children was missing a background
check. It is unreasonable to expect background checks, in a member file, if the member
did not participate in the activities requiring the background check. It is important to
recognize that Monitoring Reports document that only a few members tutored children.
These members only spent a minimal amount of time tutoring children. The response
from the organization has been provided to Cotton & Company. The program's
response and the WNCSB Monitoring Reports supports that the CNCS not disallow the
$14,634 and $7,586 in questioned costs related to the lack of background checks. The
WNCSB strongly disagrees with Cotton & Company's opinion expressed in the
questioning of these costs. (Note 1)

Cotton & Company questioned $142,693 of living allowances and $41,951 of education
awards for improper timesheets. The organization has provided a response that
demonstrates the programs continuous efforts to develop an effective time tracking
system. Monitoring Reports document that the WNCSB worked with the program to
improve time tracking records for members. The City's payroll system caused issues
for paying a stipend and required the reporting of a constant number of hours per pay
period for each member. Prior to November 1999, member hours were tracked on an
off line system and member and supervisor signatures were missing. The program has
demonstrated continuous improvement by the questioned cost being in 1998-99 and not
in the following program years. The City's response was provided to Cotton &
Company during the Exit Conference on May 20,2003. The WNCSB request that the
CNCS consider the continuous improvement efforts documented by Monitoring Reports
and the progressive efforts made by the program to properly track member service time
and not disallow the $184,644 of questioned costs. (Note 2)

Cotton & Company questioned $27,272 of costs that the U.S. Department of Housing
and Urban Development had also identified. The unacceptable cost allocation methods
used by the City were sited in audits performed in 1997,1998, 1999 and 2000. HUD is
the cognizant federal agency and accepted the City's response and corrective actions
without penalty. The City effectively resolved the issue with HUD and the CNCS should
follow the decision of the cognizant federal agency and not penalize the program. (Note
3)
The $2,212 of recalculated administrative costs should not be disallowed due to the
program efforts and intent to comply with the requirements. (Note 4)
                                                        Response by Schedule: Section 2

Schedule F-3: Questioned costs for the lack of a High School DiplomaIGED in member
files is $14,901 for education awards. The questioning of these costs has been related
to the eligibility of members. Wisconsin accepted self-disclosure by a member for
reporting the education level completed. The primary focus of the WNCSB was for
members that identified that they had not completed their High School DiplomaIGED.
These members were required to sign a form that specified that they must work on
completing the High SchoolIGED requirements during their term of service and that they
could not use the education award until they received their High School DiplomaIGED.
In Wisconsin, this was identified as an Education Award Trust issue related to the use of
the education award not as an eligiblity issue. The Corporation's recent policy
clarification to accept self-disclosure supports that the $14,901 of questioned costs
should not be disallowed. The WNCSB has developed a form to help programs meet
the eligibility documentation requirements. (Note 1)

One member was missing a birth certificate. The program has had several contacts
with the individual. Unfortunately this person feels that there is a government
conspiracy against them and is unwilling to provide the necessary eligibility document.
The CNCS should give consideration to the situation and not disallow the $3,447 of
questioned costs. (Note 1)

                                         -
6. AmeriCorps Governor's Initiative 99ASHW1051 - questioned Costs for
   Allowability and Support ($36,633) and Education Award Support ($9,336) in
   schedules G, G-I, G-2, G-3, G-4 and G-5.

Schedule G-I: The program repaid the $250 for the questioned costs of a tattoo
removal. A copy of the check has been provided to Cotton & Company.

Schedule G-2: The program is working with their auditors to review the policies and
procedures used to allocate funding. It is clear that the cost allocation plan is submitted
to the City of Milwaukee for an annual approval. (Note I )

Cotton & Company questioned $4,725 for education awards due to the lack of a High
School DiplomaIGED in member files. The questioning of these costs has been related
to the eligibility of the members. Wisconsin accepted self-disclosure by a member for
reporting the education level completed. The primary focus was for members that
identified that they had not completed their High School DiplomaIGED. The member
was required to sign a form that specified that they must work on completing the high
schoolIGED requirements during the term of service and that they could not use the
education award until they received their High School DiplomaIGED. In Wisconsin, this
issue was identified, as an Education Award Trust issue related to the use of the
educational award not an eligiblity issue. The Corporation's recent policy clarification
accepts self-disclosure and supports that the $30,714 of questioned costs should not be
disallowed. The WNCSB has developed a form to help programs meet their eligibility
documentation requirements. (Note 2 )
                                                       Response by Schedule: Section 2

The program's response demonstrates the confusion created by Wisconsin Law
forbidding the copying of birth certificates. The Board provided guidance for programs
to correct the member files and removed copies of birth certificates. Unfortunately,
some documentation was loss or incorrectly reported. (Note2)


Schedule G-3: $2,018 used for staff bonuses and has been questioned as unnecessary
costs. The program has reimbursed the $2,018. The WNCSB disagrees with the
questioned costs due to bonuses being a normal and acceptable practice for the
program to compensate employees and the CNCS should not disallow the $2,018.
(Note 1)

The questioned costs for the lack of a High School Diploma in member files is $2,363
for education awards. Wisconsin accepted self-disclosure by a member for reporting
the education level completed. The primary focus of the WNCSB was for members that
identified that they had not completed their High School DiplomaIGED. These members
were required to sign a form that specified that they must work on completing the high
schoolIGED requirements during their term of service, and that they could not use the
education award until they received their High School DiplomaIGED. In Wisconsin, this
was identified as an Education Award Trust issue related to the use of the education
award not as an eligiblity issue. The Corporation's recent policy clarification to accept
self-disclosure supports that the $2,363 of questioned costs should not be disallowed.
The WNCSB has developed a form to help programs meet the eligibility documentation
requirements. (Note 2)

Schedule G-4: One missing parental consent form should not cause the CNCS to
disallow the $1,285 of questioned costs for eligibility. The program has attempted to
secure the form and has developed procedures to ensure proper parental consent is in
place prior to members starting their service. (Note 1)

The $963 of questioned costs for the lack of a High School Diploma in a member file
was related to the eligibility of the member. Wisconsin accepted self-disclosure by a
member for reporting the education level completed. The primary focus was for
members that identified that they had not completed their High School DiplomaIGED
requirements. Members were required to sign a form that specified they must work on
completing the high school1GED requirements during their term of service and that they
could not use the education award until they received their High School DiplomaIGED.
In Wisconsin, this was identified as an Education Award Trust issue related to the use of
the educational award not as an eligiblity issue. The Corporation's policy clarification to
accept self-disclosure supports that the $963 of questioned costs should not be
disallowed. The WNCSB has developed a form to help programs meet their eligibility
documentation requirements. (Note 2)
                                                    Response by Schedule: Section 2

7. Learn and Serve - 97LSCW1017 - questioned Costs for Support ($6,000).

Schedule H: The program is gathering the necessary information to support the costs.
This is a small neighborhood association and the lack of a response is due to the
volunteers and part-time staff overseeing the L&S program. The $6,000 of questioned
costs related to two $3,000 mini-grants.
                                               APPENDIX B




CORPORATION'S RESPONSE TO DRAFT AUDIT REPORT
                                       Corporation for          n




To:           Russell George, Inspectbr General
               ,/-
                 ,
                 /    /,         P-                ,,
                ,   / ~ ~ f l ,c/'c-
                                ~ < /4A" /./ Q .LC/
                                            +

From:         ~ a r ~ a r~eofs e n b e r rD~rector
                                          ~,     of Grants Management

Date:         June 20,2003

Subj:         Response to OIG Draft Audit Report 03-04: Incurred Cost Audit of Grants
              Awarded to the Wisconsin National and Community Service Board


We have reviewed the draft audit report of the grants to the Wisconsin National and Community
Service Board. Due to the limited timeframe for response, we have not analyzed documentation
provided by the Board supporting the questioned costs nor reviewed the audit work papers. We
will respond to all findings and recommendations when the audit is issued and we have reviewed
the findings in detail. The Wisconsin Board has also provided an extensive response and is
working on corrective action as necessary.

We should also note that we agreed with the auditors to review the documentation related to the
unsupported match on the Administrative grant during the audit resolution process. The
Wisconsin Board has extensive documentation related to a large percentage of the match.
However, the auditors could not determine which cost elements to review without budget
revisions made by the Board and approved by the Corporation. Therefore, we will work with the
Wisconsin Board during the audit resolution process to complete the necessary budget revisions,
then review the supporting documentation. Based on our preliminary review of the
documentation already provided, we anticipate the many of the questioned costs will have
adequate support and will be allowed.




                             1201 New York Avenue, NW * Washington, DC 20525
                                   202-606-5000 * www.nationalse~ice.org
                             Senior Corps       * AmeriCorps * Learn and Serve America   The President's Call to Service
